a
APPENDIX

la
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
August Term 2018
Decided: March 27,
(Argued: February 13, 2019
2019) Docket No. 18-244-cv (L); 18-246-cv (Con)
EITAN ELIAHU, DOTAN NEWMAN, R. DAVID
WEISSKOPF, ELDAD GIDON,
Plaintiffs-Appellants,
MICHAEL ZAMANSKY, YAKOV BOSSIRA, DAN
SILBERMAN,
Plaintiffs,
- against JEWISH AGENCY FOR ISRAEL, NEW ISRAEL FUND,
JEWISH FEDERATIONS OF NORTH AMERICA,
NA'AMAT, WOMEN'S INTERNATIONAL ZIONIST
ORGANIZATION, P.E.F. ISRAEL ENDOWMENT
FUNDS, INC., TZIPI LIVNI, SHMUEL CHAMDANI,
NA'AMA BOLTIN, MIRIAM DARMONY, EINAT GILEADMESHULAM, TOMER MOSKOWITZ, CLANIT
BERGMAN, JOHN HAGEE, INTERNATIONAL
FELLOWSHIP OF CHRISTIANS AND JEWS,
JERUSALEM INSTITUTE OF JUSTICE. CARY
SUMMERS, AMERICAN FRIENDS OF BAR-ILAN
UNIVERSITY, JEFFREY ROYER, NOA REGEV, ALON
SALEH, ZEV GABAI, ARIEL LAGANA, ORIT AVIGAIL
YAHALOMI, MICHAEL DUWANI,
Defendants-Appellees.

2a
ON APPEAL FROM THE UNITED STATES DISTRICT
COURT FOR THE SOUTHERN DISTRICT OF NEW
YORK
Before PARKER, CHIN, and SULLIVAN, Circuit Judges.
Appeals from orders of the United States District
Court for the Southern District of New York (Pauley, J.),
dismissing plaintiffs-appellants' amended complaint in part
for lack of subject matter jurisdiction pursuant to Federal
Rule of Civil Procedure 12(b)(1) and in part for failure to
state a claim pursuant to Rule 12(b)(6). Plaintiffsappellants contend that the district court erred in
dismissing their amended complaint and issuing an anti­
filing injunction against two of them.
AFFIRMED.
SAUL ROFFE, Law Offices of Saul Roffe, Esq.,
Marlboro, New Jersey, for Plaintiffs-Appellants Dotan
Newman, R. David Weisskopf, and Eldad Gidon.
Eitan Eliahu, pro se, San Jose, California,
for Plaintiff- Appellant Eitan Eliahu.
ROBERT REEVES ANDERSON (John B. Bellinger, III,
Stephen K. Wirth, on the brief), Arnold & Porter Kaye
Scholer LLP,
Denver, Colorado, and Washington, DC,
for Defendants-Appellees Tzipi Livni, Shmuel Chamdani,
Na’ama Boltin, Miriam Darmonv, Einat Gilead-Meshulam.
Tomer Moskowitz, Clanit Bergman, Orit Avigail Yahalomi,
Zev Gabai, Ariel Lagana, Michael Duwani, Alona Sadeh,
and Noa Regev.
Kenneth B. Danielson, Kaufman, Dolowich & Voluck LLP,
Hackensack, New Jersey,

3a
for Defendants- Appellees New Israel Fund, Jewish
Federations of North America, Na'amat, American Friends
of Bar- Ilan University, International Fellowship of
Christians and Jews, and Jeffrey Royer.
Gerald D. Silver, Sullivan & Worcester LLP, New York,
New York, for Defendants-Appellees Jewish Agency for
Israel, Women's International Zionist Organization,
Jerusalem Institute of Justice, and John Hagee.
Robert E. Crotty, Kelley Drye & Warren LLP,
New York, New York,
for Defendant-Appellee P.E.F. Israel Endowment Funds,
Inc.
PER CURIAM:
Plaintiffs-appellants Eitan Eliahu, Dotan Newman,
R. David Weisskopf, and Eldad Gidon ("Plaintiffs") appeal
from a December 28, 2017 order of the district court
dismissing their action against defendants-appellees,
current and former officials of the Government of Israel
(the "Israeli Officials") and nine charitable organizations
and three affiliated individuals. Plaintiffs' claims arise
from their dissatisfaction with the outcome of divorce
proceedings in Israel and subsequent efforts by their exwives, with the assistance of the charitable organizations,
to collect child support from them. Weisskopf and Eliahu
also appeal the district court's order permanently enjoining
them from filing any future action. in_federal court related
to the allegations asserted in this lawsuit without the
district court's preauthorization. We affirm the district
court's order of dismissal as well as its anti-filing
injunction.
I. Order of Dismissal
"A case is properly dismissed for lack of subject

4a
matter jurisdiction under Rule 12(b)(1) when the district
court lacks the statutory or constitutional power to
adjudicate it." Makarova v. United States, 201 F.3d 110,
113 (2d Cir. 2000). On appeal from a dismissal for lack of
subject matter jurisdiction, factual findings are reviewed
for clear error and legal conclusions are reviewed de novo.
Id. For a motion to dismiss for failure to state a claim
pursuant to Rule 12(b)(6), this Court reviews the district
court's ruling de novo, "accepting as true all factual claims
in the complaint and drawing all reasonable inferences in
the plaintiffs favor." Fink v. Time Warner Cable, 714 F.3d
739, 740-41 (2d Cir. 2013) (per curiam). To survive a
motion to dismiss for failure to state a claim, the complaint
must plead "enough facts to state a claim to relief that is
plausible on its face." Bell Atl. Corp. v. Twombly, 550 U.S.
544, 570 (2007); see also Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009).
The district court properly dismissed all claims
against the Israeli Officials for lack of subject matter
jurisdiction because, as foreign government officials acting
their official capacity, they are entitled to immunity. See
Underhill v. Hernandez, 168 U.S. 250, 252 (1897)
(recognizing "[t]he immunity of individuals from suits
brought in foreign tribunals for acts done within their own
states, in the exercise of governmental authority ... as civil
officers"); Matar v. Dichter, 563 F.3d 9, 14 (2d Cir. 2009)
(recognizing that foreign officials are entitled to immunity
for acts performed in their official capacity).
Specifically, the Israeli Officials are eleven registrars
or directors of Israel's Enforcement and Collection
Authority, a retired Israeli judge, and Israel's former
Minister of Justice and Foreign Affairs. Plaintiffs allege
that these officials created fictious debts, impeded the
payment of debts, and engaged in other similar misconduct
while operating under color of Israeli law. Even assuming
the officials' challenged conduct was improper under Israeli

5a
law, there is no doubt that the conduct was official in
nature. See Larson v. Domestic & Foreign Commerce
Corp., 337 U.S. 682, 689-90 (1949) (distinguishing between
an official's erroneous exercise of power, which is protected
by sovereign immunity, and an official's acts taken in the
absence of any delegated power, which are not so 6
protected); Velasco v. Gov't Of Indonesia, 370 F.3d 392,
399 (4th Cir. 2004) (recognizing that foreign sovereign
immunity, including foreign official immunity, "models
federal common law relating to derivative U.S. sovereign
immunity"). Accordingly, the Israeli Officials are entitled
to foreign official immunity.
With respect to the remaining defendants, the
district court held that Plaintiffs failed to satisfy the
domestic injury requirement of the Racketeer Influenced
and Corrupt Organizations Act ("RICO"), 18 U.S.C. §
1964(c), or identify any requisite predicate acts of
racketeering activity, id. § 1962(b)-(c). See
Appellants' App'x. at 211-14. In addition, the district court
held there is no private right of action that allows for
Plaintiffs' claims of aiding and abetting a RICO violation,
extortion, and mail fraud against defendants in the
circumstances here. Id. at 11-12. For substantially the
reasons set forth by the district court in its December 28,
2017 order, we conclude that Plaintiffs failed to state a
plausible claim for relief as to these defendants as well.
As Judge Pauley correctly concluded,
Plaintiffs' allegations that they suffered personal injuries,
rather than "injur[ies] to business or property," do not state
a cognizable civil RICO claim, Bascunan v. Elsaca, 874 F.3d
806, 817 (2d Cir. 7 2017), and Plaintiffs' allegations that
they suffered business-related injuries fall short because the
alleged injuries lack the requisite connection to Plaintiffs'
domestic property or financial interests, see id. at
819. Plaintiffs' claims of extortion, mail fraud, and aiding
and abetting a RICO violation fail as well. With respect to

6a
the extortion claim, Plaintiffs have not identified a private
cause of action under either federal or state law, and the
Court is not aware of one. See Wisdom v. First Midwest
Bank, of Poplar Bluff, 167 F.3d 402, 408-09 (8th Cir. 1999)
(holding that there is no private cause of action under the
federal extortion statute, 18 U.S.C. § 1951); Minnelli v.
Soumayah, 839 N.Y.S.2d 727, 728 (N.Y. App. Div. 2007)
("[E]xtortion and attempted extortion are criminal offenses
[under New York law] that do not imply a private cause of
action." (citations omitted)). Similarly, there is no private
cause of action under the federal mail fraud statutes cited
in the amended complaint, Official Publ'ns, Inc. v. Kable
News Co., 884 F.2d 664, 667 (2d Cir. 1989), or for aiding
and abetting a civil RICO violation, see Penn. Ass'n of
Edwards Heirs v. Reightenour, 235 F.3d 839, 843-44 (3d
Cir. 2000). Thus, we affirm the district court's dismissal of
Plaintiffs' claims under Rule 12(b)(6).
II. Anti-Filing Injunction
We also hold that the district court did not abuse its
discretion in barring Weisskopf and Eliahu from filing
future related actions against defendants without its
permission. See Gollomp v. Spitzer, 568 F.3d 355, 368 (2d
Cir. 2009) ("We review all aspects of a district court's
decision to impose sanctions . . . for abuse of
discretion." (citation omitted)). In determining whether to
restrict a litigant's future ability to sue, a court must
consider "whether a litigant who has a history of vexatious
litigation is likely to continue to abuse the judicial process
and harass other parties." Safir v. U.S. Lines, Inc., 792
F.2d 19, 24 (2d Cir. 1986);_see also Richardson Greenshields
Sec., Inc. v. Mui-Hin Lau, 825 F.2d 647, 652 (2d Cir. 1987)
(explaining that "[a]bsent extraordinary circumstances,
such as a demonstrated history of frivolous and vexatious
litigation," a court has no power to prevent parties from
filing legal documents authorized by the federal rules). We
have identified the following factors to be considered in

7a
deciding whether to impose an anti-filing injunction:
(1) the litigant's history of litigation and in particular
whether it entailed vexatious, harassing or duplicative
lawsuits; (2) the litigant's motive in pursuing the
litigation, e.g., does the litigant have an objective good
faith expectation of prevailing?; (3) whether the
litigant is represented by counsel; (4) whether the
litigant has 9 caused needless expense to other parties
or has posed an unnecessary burden on the courts and
their personnel; and (5) whether other sanctions
would be adequate to protect the courts and other
parties.
Iwachiw v. N.Y. State Dep't of Motor Vehicles, 396 F.3d
525, 528 (2d Cir. 2005) (per curiam) (quoting Safir, 792
F.2d at 24).
Here, the district court determined that the first,
second, and fourth factors weighed in favor of issuing an
anti-filing injunction against Weisskopf and Eliahu: their
history of vexatious litigation; their improper motives for
pursuing the litigation; and the expense to defendants and
burden on the courts. See Appellants' App'x at 217-18. We
agree with the district court's assessment as to those three
factors, and we additionally conclude that the third and
fifth factors also weigh against lifting the anti-filing
injunction as to both Weisskopf and Eliahu.
First, we agree that Weisskopf has a demonstrable
history of vexatious and baseless litigation against
defendants. Id. Prior to this action, Plaintiffs, led by
Weisskopf, filed twelve other actions in either federal or
state courts throughout the United States1. Eliahu does not

1 See Weisskopf v. Marcus, 695 F. App’x 977 (7th Cir. 2017); Eliahu v.
Israel, 659 F. App’x 451 (9th Cir. 2016); Ben-Haim v. Neeman, 543 F.
App’x 152 (3d Cir. 2013) (per curiam); Weisskopf v. Jerusalem Found.,
No. 18-cv-5557 (N.D. Ill. Jan. 14, 2019); Ben-Haim v. Avraham, No. 15cv-6669, 2016 WL 4621190 (D.N.J. Sept. 6, 2016); Ettiben-Issaschar v.

8a
have the same history as he has only been involved in one
of the prior thirteen actions. There is not, however, a strict
numerosity requirement that must be met before a district
court may exercise its discretion to enjoin a litigant from
filing future actions. Rather, the court must consider the
record as a whole and the likelihood that the litigant will
continue to abuse the judicial process. See Safir, 792 F.2d
at 24. In this case, the record contains several indications
that Eliahu is likely to engage in further harassing,
duplicative, and vexatious litigation against these
defendants. As he recently lost in the Northern District of
California and on appeal in the Ninth Circuit, Eliahu v.
Israel, No, 14-cv-1636, 2015 WL 981517 (N.D. Cal. Mar. 3,
2015), affd, 659 F. App'x 451 (9th Cir. 2016), Eliahu was
acutely aware that his claims lacked merit. Moreover,
Eliahu added his name to the amended complaint in this
action, which tracks -- verbatim -- the complaints dismissed
in Plaintiffs' prior actions. As the district court
observed, "[a] 11 of [Weisskopfs and Eliahu's] cases are
virtually carbon copies of one another . . . depict [ing] the
same story, grievances, and requests for relief that federal
courts in the United States are not ELI Am. Friends, No.
14-cv-5527 (E.D. Pa. Nov. 5, 2014); Issaschar v. ELI Am.
Friends, No. 13-cv-2415, 2014 WL 716986 (E.D. Pa. Feb. 25,
2014); Weisskopf v. Jewish Agency for Israel, Inc., No. 12cv-6844 (S.D.N.Y. Apr. 30, 2013); Weisskopf v. Neeman, No.
ll-cv-665 (W.D. Wis. Mar. 20, 2013); Weisskopf v. United
ELI Am. Friends, No. 15-cv-6441, 2016 WL 97682 (E.D. Pa. Jan. 7,
2016);Tssaschar v. ELI Am. Friends7No. L4^cvr5527 (E.D. ParNov. 5,
2014); Issaschar v. ELI Am. Friends, No. 13-cv-2415, 2014 WL 716986
(E.D. Pa. Feb. 25, 2014); Weisskopf v. Jewish Agency for Israel, Inc.,
No. 12-cv-6844 (S.D.N.Y. Apr. 30, 2013); Weisskopf v. Neeman, No. llcv-665 (W.D. Wis. Mar. 20, 2013); Weisskopf v. United Jewish AppealFed’n of Jewish Philanthropies of N.Y., Inc., 889 F. Supp. 2d 912 (S.D.
Tex. 2012); Ben-Haim v. Edri, 183 A.3d 252 (N.J. Super. Ct. App. Div.
2018).

9a
Jewish Appeal- Fed’n of Jewish Philanthropies of N.Y., Inc.,
889 F. Supp. 2d 912 (S.D. Tex. 2012); Ben-Haim v. Edri,
183 A.3d 252 (N.J. Super. Ct. App. Div. 2018). 11
authorized to grant." Appellants' App'x at 217. In these
circumstances, Eliahu should not get a "pass" merely
because he has filed only one prior lawsuit.
Second, the district court did not err in determining
that Weisskopf and Eliahu lacked an objective good faith
expectation of prevailing. They were unsuccessful with
their claims and defenses in Israel, and yet they came to the
United States continuing to press their claims. The
dismissal of similar, if not identical, prior actions
underscores that both Weisskopf and Eliahu had little, if
any, good faith basis for believing they could prevail on
their claims. See Iwachiw, 396 F.3d at 529 (upholding anti­
filing injunction on appeal entered against plaintiff who
brought a similar prior appeal).
With respect to the fourth factor, defendants have
continually been forced to defend frivolous lawsuits at not
insignificant costs and the courts have been burdened with
adjudicating these repeating claims. Appellants' App'x at
217-18. Weisskopf, in particular, has repeatedly sued the
Israeli Officials across the United States despite decisions
from several courts holding that they lack jurisdiction over
these foreign defendants. Likewise, Eliahu has now
asserted his meritless claims in four courts -- the Northern
District of California, the Ninth 12 Circuit, the Southern
District of New York, and now this Circuit -- forcing
defendants to defend themselves on both coasts.
_____ While the district court did not discuss the third and
fifth factors, we conclude that they also weigh against
vacating the anti-filing injunction against Weisskopf and
Eliahu. In considering a litigant's status, we have
recognized that pro se litigants, in many cases, are entitled
to special solicitude, but we have not altogether "excuse [d]
frivolous or vexatious filings by pro se litigants." Triestman

10a
v. Fed. Bureau of Prisons, 470 F.3d 471, 477 (2d Cir. 2006)
(per curiam) (citation omitted); Iwachiw, 396 F.3d at 529
n.l (recognizing that pro se complaints are reviewed using
less stringent standards but rejecting the suggestion that
ordinary procedural rules in civil litigation should excuse
mistakes or frivolous or vexatious filings of pro se
litigants). While Plaintiffs filed the amended complaint pro
se, evidently they had assistance from counsel. The
document plainly appears to have been drafted by, or with
the assistance of, an attorney, and Plaintiffs, including
Weisskopf and Eliahu, engaged counsel to represent them
in arguing against defendants' motion to dismiss. On
appeal, Weisskopf is represented by the same counsel and
Eliahu proceeds pro se. Thus, at varied stages in this
litigation, Eliahu and Weisskopf have received the
assistance of 13 counsel. See Iwachiw, 396 F.3d at 529
(noting that "plaintiff appeared pro se below, while four
groups of defendants each incurred the expense of being
represented by counsel" in considering the
parties' respective burdens). We find no basis to afford
either Weisskopf or Eliahu the latitude usually granted to
pro se litigants.
Finally, as to the fifth factor, we conclude that other
sanctions against Weisskopf and Eliahu would be
inadequate. Both complain of monetary injuries caused by
Israeli judgments against them, but they clearly have the
resources to pay the filing fees in actions against
defendants in Israel and across the United
States. Regardless of the precise details of
Plaintiffs' financial circumstances, however, the record
demonstrates that monetary sanctions are unlikely to
dissuade them from continuing their litigation
campaign. Thus, we affirm the district court's order
enjoining both Weisskopf and Eliahu from filing future,
related actions without its permission.
CONCLUSION

11a
Accordingly, the orders of the district court
dismissing this action for lack of subject matter and failure
to state a claim and imposing the anti-filing injunction are
AFFIRMED. Further, we assess double costs against
Weisskopf and Eliahu under Federal Rule of Appellate
Procedure 38 and this Court's inherent authority.

12a
APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
DOTAN NEWMAN, et al,
Plaintiffs,
OPINION

:
16-cv7593
: AMENDED
: AND ORDER

-againstJEWISH AGENCY FOR ISRAEL, et al., :
Defendants.
:

WILLIAM H. PAULEY III, United States District Judge:
Defendants Jewish Agency for Israel, et al., move to
dismiss Plaintiffs’ amended complaint. For the reasons that
follow, Defendants’ motion to dismiss is granted.
BACKGROUND
The operative facts stem exclusively from
proceedings in Israel. Plaintiffs are a group of seven
divorced fathers who allege that they are victims of a
conspiracy orchestrated by former and current Israeli
government officials and a number of charities. Plaintiffs
allege they were injured in various ways, ranging from
wage garnishment to restrictions on their travel.
Distilling the allegations in the amended complaint
(“Complaint”), which are accepted as true for purposes of
this motion, the mechanics of the conspiracy unfold in the
following manner: an Israeli family court enters an order
related to the dissolution of a Plaintiffs marriage—usually
for alimony and/or child support—imposing a financial
obligation on that Plaintiff. The agency responsible for
collecting payment on such obligations—the Debt
Collections Office in Israel—“wrongfully refuse[s] to accept

13a
[the] payments . . . and arbitrarily and capriciously,” absent
judicial approval, changes the amount owed and charges
excessive fines resulting from a failure to pay the modified
balance. (Amended Complaint (“Compl.”), ECF No. 40,11
8(b).) Israeli officials from various levels of the government
(the “Israeli Officials”) either control, oversee, or facilitate
the Debt Collections Office’s efforts to unlawfully collect
these “arbitrary and excessive debts.” (Compl. H 45.)
As Plaintiffs’ debts grow, the Debt Collections Office
deploys a number of coercive tactics to obtain payment,
ranging from making false arrests to threatening Plaintiffs’
family members. (Compl. U 8(b).) When Plaintiffs fail or
refuse to pay these debts, they face severe consequences: an
order freezing their bank accounts and credit cards,
garnishment of theirwages, imposition of excessive interest
rates, issuance of stop-travel orders prohibiting them from
traveling outside of Israel, and revocation of their driver’s
licenses. To add insult to injury, Plaintiffs are cast as
“deadbeat dads” and “abusive fathers” solely because of
their failure to honor their financial obligations.
Another part of the conspiracy involves actions taken
by various Jewish or Christian fundraising organizations
and individuals (the “Fundraising Defendants”). According
to the Complaint, the Fundraising Defendants offer money
and services to Plaintiffs’ ex-wives in exchange for their
agreement to assert “false claims and [ ] false allegations
against their exhusbands
relating to their payment of spousal and child support.”
(Compl. H 58.) The filing of these complaints authorizes the
Debt Collections Office to “manipulate] the amounts of the
spousal and child support owed [by Plaintiffs] and thereby
provide examples for the Fundraising Defendants to raise
funds.” (Compl. 11 59.) Those examples—“deadbeat” fathers
who have abandoned their child support obligations—are
prominently advertised on billboards and through
communications soliciting donations on behalf of the

14a
Fundraising Defendants’ organizations.
As a result of their ex-wives’ complaints, Plaintiffs
lose custody of their children. (See e.g., Compl. ITU 8, 95.)
Consequently, their children are placed into childcare
services managed by the Fundraising Defendants who
profit from these arrangements. To maintain this lucrative
scheme, the Fundraising Defendants interfere with
Plaintiffs’ subsequent attempts to regain custody.
Plaintiffs assert six separate causes of action against
the Israeli Officials and Fundraising Defendants: (1)
negligent infliction of emotional distress; (2) intentional
infliction of
emotional distress; (3) aiding and abetting violations of the
Racketeer Influenced and Corrupt Organizations Act
(“RICO”); (4) violations of RICO; (5) extortion; and (6) mail
fraud.
DISCUSSION
I. Standard
To survive a motion to dismiss, the complaint must
plead “enough facts to state a claim to relief that is
plausible on its face.” Bell Atl. Corp. v. Twombly, 550 U.S.
544, 570 (2007). A “plausible” claim is “more than a sheer
possibility that a defendant has acted unlawfully” but is
less than a “probability requirement.” Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009). “With regard to pro se
complaints, the court construes the complaint liberally,
accepting
all factual allegations in the complaint as true, and drawing
all reasonable inferences in the plaintiff[s’] favor.”1 Jackson
1
Plaintiffs commenced this action pro se and represented
themselves in that capacity through the initial pretrial conference,
amendment of their Complaint, and opposition to Defendants’ motion
to dismiss. At the eleventh hour before oral argument on this motion,
however, an attorney appeared on their behalf, explaining that he
would represent them solely for purposes of arguing their opposition to
the motion to dismiss. Notwithstanding counsel’s belated appearance,

15a
v. Cnty. of Rockland, 450 F. App’x. 15, 18 (2d Cir. 2011).
II. Subject Matter Jurisdiction
Dismissal for lack of subject matter jurisdiction is
proper “when the district court lacks the statutory or
constitutional power to adjudicate [the claims].” Makarova
v. United States, 201 F.3d 110, 113 (2d Cir. 2000). Under
the common law, an individual foreign official is entitled to
immunity for acts performed in his official capacity.
Samantar v. Yousuf, 560 U.S. 305, 324 (2010); Weiming
Chen v. Ying-jeou Ma, 2013 WL 4437607, at *3 (S.D.N.Y.
Aug. 19, 2013).
Here, all of the Israeli Officials’ acts were taken in
their capacities as government officials. The Complaint
alleges that the Israeli Officials entered illegal orders, made
extrajudicial demands, arbitrarily altered amounts owed,
and assessed improper fees against Plaintiffs. (Compl. 11
45.) The Israeli Officials also issued arrest warrants, froze
bank accounts, and garnished wages. (Compl. HH 106, 138,
210, 222.) Each of these actions represent official
conduct taken in response to Plaintiffs’ apparent failure to
comply with their child and spousal support obligations.
The authority to take such actions arises directly from their
positions as
government officials tasked with overseeing the Debt
Collections Office, enforcing the child and spousal support
orders, and providing judicial recourse for unpaid debts.
Plaintiffs characterize these actions as wrongful and
illegal, but such slights do not render the acts any less
official.2 See, e.g., In re Terrorist Attacks on Sept. 11, 2001,
122 F. Supp. 3d 181, 189 (S.D.N.Y. 2015) (“Such an. ___
this Court construes the Plaintiffs’ pleadings and papers under the
liberal standard typically afforded to pro se litigants.
2. Nor do Plaintiffs allege that these acts amounted to a violation of a
jus cogen norm that might vitiate the Israeli Officials’ claim of
immunity. See Omari v. Ras A1 Khaimah Free Trade Zone Auth., 2017
WL 3896399, at *10 (S.D.N.Y. Aug. 18, 2017).

16a
assertion is merely an artful way of implicating the jus
cogens doctrine,” which is “not a limitation to a foreign
official’s right to immunity in U.S. courts where, as here,
that official acted in his official capacity.”). Indeed, if
Plaintiffs
could hurdle immunity simply by alleging that the acts
were illegal, “such a rule would eviscerate the protection of
foreign official immunity and would contravene federal law
on foreign official immunity.” Giraldo v. Drummond Co.,
Inc., 808 F. Supp. 2d 247, 250 (D.D.C. 2011). The
dispositive question is whether the defendant was a
government official authorized to take the actions at issue
here. The Israeli Officials—as bureaucrats tasked with
overseeing the Debt Collections Office and judges
empowered to remedy delinquencies associated with divorce
decrees—are entitled to immunity because their actions
were taken through official channels “presumptively in
furtherance of [the] enforcement of [Israel’s] laws.” Omari,
2017 WL 3896399, at *10. Without any basis for the
exercise of subject matter jurisdiction, Defendants’
motion to dismiss the claims against the Israeli Officials is
granted.
III. Personal Jurisdiction
While lack of subject matter jurisdiction suffices to
dispose of the claims against the Israeli Officials, it bears
noting that there also is no basis to exercise personal
jurisdiction. “Determining personal jurisdiction over a
foreign defendant in a federal-question case such as this
requires a two-step inquiry. First [the court] look[s] to the
law of the forum state to determine whether personal_
jurisdiction will lie. If jurisdiction lies, [the court]
consider [s]
whether the district court’s exercise of personal jurisdiction
over a foreign defendant comports with due process
protections established under the United States
Constitution.” Licci ex rel.

17a
Licci v. Lebanese Canadian Bank, SAL, 732 F.3d 161, 168
(2d Cir. 2013).
New York’s C.P.L.R. § 302 applies to jurisdiction
over non-domiciliaries. Under C.P.L.R. § 302(a), a court
may exercise personal jurisdiction over any non-domiciliary
who, either “in person or through an agent”: (i) “transacts
any business within the state or contracts anywhere to
supply goods or services in the state”; (ii) “commits a
tortious act within the state”; (iii) “commits a tortious act
without the state causing injury to person or property
within the state ... if he [a] regularly does or solicits
business, or engages in any other persistent course of
conduct, or derives substantial revenue from goods used or
consumed or services rendered, in the state, or [b] expects
or should reasonably expect the act to have consequences in
the state and derives substantial revenue from interstate or
international commerce”; or (iv) “owns, uses or possesses
any real property situated within the state.” N.Y. C.P.L.R.
§ 302(a)(l)-(4).
None of the scenarios set forth in § 302(a) apply
here. With the exception of a single, unsubstantiated
reference to Defendant Livni’s residence in Brooklyn, the
Complaint is bereft of any allegation connecting the Israeli
Officials to the State of New York. Even if Plaintiffs sought
to use Livni’s Brooklyn residence as a hook for jurisdiction
under C.P.L.R. § 302(a)(4), such an attempt would fail
because they must demonstrate “a relationship between
the property and the cause of action sued upon.” Lancaster
v. Colonial Motor Freight Line, Inc., 177 A.D. 2d 152, 159
(N.Y. App. Div. 1st Dep’t 1992). The underlying allegations
lack any nexus to Livni’s home in Brooklyn.
Moreover, an exercise of personal jurisdiction would
not comport with constitutional due process. The
Complaint makes no showing of the minimum contacts
necessary to “justify the court’s exercise of personal
jurisdiction” over any of the Defendants.

18a
Elsevier, Inc. v. Grossman, 77 F. Supp. 3d 331, 347
(S.D.N.Y. 2015). Even under a liberal construction,
Plaintiffs’ allegations fall woefully short of establishing that
the Israeli Officials “purposefully avail[ed] [themselves] of
the privilege of conducting activities” within New York,
thus “invoking the benefits and protections of its laws . . .
such that [they] should reasonably
anticipate being haled into court” here. Best Van Lines,
Inc. v. Walker, 490 F.3d 239, 242 (2d Cir. 2007) (quoting
Burger King Corp. v. Rudzewicz, 471 U.S. 462, 474-75
(1985)).
Additionally, maintaining jurisdiction over Israeli Officials
would be unreasonable. Their actions—which form the
primary basis for the requested relief in this action—were
taken exclusively in Israel in the course of their duties as
current and former government officials. Compelling these
defendants to litigate Plaintiffs’ claims in New York would
impose excessive burdens. Nor could Plaintiffs litigate this
action anywhere else in the United States because no
state has an interest in adjudicating this case. See Asahi
Metal Indus. Co. v. Superior Court, 480 U.S. 102, 113-14
(1987).
The federal grounds for jurisdiction are equally
unavailing. The RICO statute does not, by itself, confer
personal jurisdiction. Laborers Local 17 Health & Ben.
Fund v. Philip Morris, Inc., 26 F. Supp. 2d 593, 601
(S.D.N.Y. 1998) (“Plaintiffs asserting RICO claims against
foreign defendants must rely on the long-arm statute of the
state in which they filed suit.”). And the federal long arm
statute, under Rule 4(k)(2), provides no basis for _______
jurisdiction on the facts alleged in the Complaint. While the
rule authorizes personal jurisdiction for federal claims if
doing so is “consistent with the United States
Constitution,” Plaintiffs’ failure to establish
minimum contacts and the reasonableness of exercising
jurisdiction under C.P.L.R. § 302 extends with equal force

19a
to the federal long arm statute. BMW of N. Am. LLC v. M/V
Courage, 2017 WL 2223052, at *3 (S.D.N.Y. May 19, 2017)
(requiring sufficient contacts with the United States as a
whole); Porina v. Marward Shipping Co., 521 F.3d 122, 127
(2d Cir. 2008) (courts
must consider whether “the assertion of personal
jurisdiction is reasonable under the circumstances of the
particular case”). Accordingly, all of Plaintiffs’ claims
against the Israeli
Officials are also dismissed for lack of personal jurisdiction.
IV. Civil RICO
Plaintiffs assert a civil RICO claim against both the
Israeli Officials and the Fundraising Defendants. Because
all claims against the Israeli Officials are dismissed for lack
of subject matter and personal jurisdiction, this Court
focuses its analysis on the civil RICO claim as it pertains to
the Fundraising Defendants.
Relief under the civil RICO statute is appropriate if
the Plaintiffs can establish: (1) that they suffered an injury
to business or property; (2) that their injury is a domestic
one; and
(3) that the injury was proximately caused by the
defendants’ violation of 18 U.S.C. § 1962. See 18 U.S.C. §
1964(c). The third requirement—violations of 18 U.S.C. §
1962—lays out the
elements of a substantive RICO violation, including (1) that
defendants were employed by, or associated with, an
enterprise affecting interstate commerce; and (2) that they
participated in the
conduct of the enterprise’s affairs through at least two
predicate acts of racketeering activity. See 18 U.S.C. §
1962(b)-(c).
Plaintiffs’ civil RICO claim fails at the first step—
alleging facts to show a domestic injury to business or
property. As an initial matter, it is difficult to discern the
exact nature of Plaintiffs’ injury. Plaintiffs allege a plethora

20a
of injuries resulting from the Fundraising
Defendants’ activities—harassment, garnishment, personal
injuries, false arrest, and asset freezes, among others. But
only injuries to business or property are covered by the
RICO statute.
Bascunan v. Elsaca, 874 F.3d 806, 817 (2d Cir. 2017) (“A
plaintiff bringing a civil RICO claim must allege an injury
to his ‘business or property’; he cannot, for example,
recover for ‘personal
injuries.’”). Therefore, to the extent the Plaintiffs seek
relief for “personal injury or harassment, not damage to
business or property,” their RICO claims fail on grounds
that such injuries are
“not [of] the sort. . . cognizable under RICO.” Savine-Rivas
v. Farina, 1992 WL 193668, at *3 (E.D.N.Y. Aug. 4, 1992);
see also Burdick v. Am. Exp. Co., 865 F.2d 527, 529 (2d Cir.
1989)
(interference with business and ability to earn living are
“type[s] of harm [that are] simply too remotely related to
the predicate acts of mail and securities fraud to support a
claim under RICO”).
But even the alleged injuries to business or property
fail to make out a RICO injury because they are not
domestic injuries. For example, the Complaint alleges that
Defendants “took all the money in [Plaintiff Weisskopfs]
bank account[,] intentionally leaving a
negative balance in his bank account” without making any
reference to the account’s location. (Compl. H 136.)
Plaintiffs vaguely allude to other bank and financial
accounts throughout the_________ ______
Complaint. (See e.g., Compl. 1If 152, 176, 188, 196, 207, 210,
213.) From what this Court can gather, the thrust of
Plaintiffs’ grievance is that the Defendants’ actions saddled
them with outsized debts arising from fictitious orders that
ultimately forced them to liquidate their assets leaving
them in dire financial straits. But while “injury to tangible

21a
property is generally a domestic injury only if the property
was physically located in the United States,” the Plaintiffs
offer no specific allegations concerning where their
accounts were located or used. Bascunan, 874 F.3d at 819.
Moreover, to the extent that Plaintiffs seek to
establish a domestic connection by alleging that some of the
Fundraising Defendants located in the United States made
off with
illicit proceeds derived from Plaintiffs’ assets, the “only
domestic connections alleged here were acts of the
defendant[s].” Bascunan, 874 F.3d at 819 (emphasis
original). It improperly turns the
focus on the location of the Defendants, and not, as it
should, on the location of Plaintiffs’ property or financial
interests. Bascunan, 874 F.3d at 819.
Finally, the civil RICO claim fails because the
Plaintiffs have not sufficiently established the requisite
predicate acts. The Complaint ticks off more than a dozen
criminal acts,
ranging from financial institution fraud to slavery, but
“RICO claims must be pled with specificity.” Jet One Grp.,
Inc. v. Halcyon Jet Holdings, Inc., 2009 WL 2524864, at *4
(E.D.N.Y. Aug. 14, 2009). The Complaint is particularly
deficient with respect to predicate acts pertaining to fraud,
since those acts “must be pled in accordance with the
higher pleading requirements of Rule 9(b).” Morrow v.
Black, 742 F. Supp. 1199, 1203 (E.D.N.Y. 1990). But
beyond alleging in conclusory fashion that the Defendants
devised a fraud using the mails and wires, the Complaint
offers scant detail on the defendants, the communications,
and the purpose
or substance of such communications to meet the
heightened standard under which mail fraud or wire fraud
may be alleged as predicate acts. Rivera v. Golden Nat.
Mortg. Banking Corp., 2005
WL 1514043, at *3 (S.D.N.Y. June 27, 2005) (“Plaintiff

22a
states broadly that Defendants .. . engaged in a secret
scheme of conduct. . . but neglects to include names, dates
or even allege use of the mails or a telephone.”); Wexner v.
First Manhattan Co., 902 F.2d 169, 172-73 (2d Cir. 1990)
(claim of mail or wire fraud must specify the content, date,
and place of any alleged
misrepresentation and identity of persons making them).
Mathon v. Feldstein, 303 F. Supp. 2d 317 (E.D.N.Y.
2004), is instructive to the extent it involved a civil RICO
claim asserted by a pro se plaintiff who actually alleged
with some specificity (more than the Plaintiffs here) the
facts underlying the mail and wire fraud predicate acts. But
even so, that court found such allegations insufficient
because the plaintiff failed “to set forth the content of the
items mailed and specify how each of the items were false
and misleading,” or to “identify the dates that the[] alleged
conversations [took] place, where the phone calls [or
emails] took place and that during these phone calls [or
email communications],
the defendants knowingly made false representations to the
plaintiff.” Mathon, 303 F. Supp. 2D at 323-24. Even under
a liberal construction of the Complaint, Plaintiffs similarly
fail to allege
with sufficient specificity the predicate acts to their RICO
claim.
Accordingly, the civil RICO claim against the
Fundraising Defendants is dismissed.
V. No Private Right of Action
Plaintiffs assert a number of claims to which there
are no private rights of action. Each claim is addressed in
turn.
A. Aiding and Abetting a RICO Violation
The Complaint alleges a claim for aiding and
abetting a RICO violation against the Fundraising
Defendants. However, it has long been held by courts in
this District and across the country that “there is no

23a
private right of action for aiding and abetting a RICO
violation.” Goldfine v. Sichenzia, 118 F. Supp. 2d 392, 406
(S.D.N.Y. 2000) (citing LaSalle Nat’l Bank v. Duff & Phelps
Credit Rating Co., 951 F. Supp. 1071, 1088-89 (S.D.N.Y.
1996)). Accordingly, Count Three of the Complaint is
dismissed.
B. Extortion
Plaintiffs assert an extortion claim against both the
Israeli Officials and the Fundraising Defendants. But
extortion is a criminal offense and may not be converted
into a private civil cause of action. Williams v. Jurow, 2007
WL 5463418, at *13 (S.D.N.Y. June 29, 2007) (There “is no
private right of action under the federal extortion
statute.”). In fact, under New York law, “such claim is
patently frivolous as extortion is a criminal offense, and
may not be pled as a separate cause of action in a civil
case.” Naples v. Stefanelli, 972 F. Supp. 2D 373, 401
(E.D.N.Y. 2013). Accordingly, Count Five of the Complaint
is dismissed.
C. Mail Fraud
Plaintiffs’ final cause of action alleged in the
Complaint is a claim for mail fraud pursuant to 18 U.S.C.
§§ 1341 and 1343 against the Fundraising Defendants. But
as with the prior claims, a mail fraud claim is not
actionable as a private cause of action. The mail fraud
statute is a “bare criminal statute with no indication of any
intent to create a private cause of action, in either the
section in question or any other section.” Brandstetter v.
Bally Gaming, Inc.,
2012 WL 4173193. at *6 (E.D.N.Y. Aug. 23. 2012). ... __
Accordingly, Count Six of the Complaint is dismissed.
VI. Pre-Suit Injunction
In addition to dismissal, Defendants seek a “finding
that [Plaintiffs’] claims are frivolous and an order barring
Messrs. Weisskopf and Eliahu from filing future lawsuits
without the Court’s prior authorization.” (Def. Memo, of

24a
Law in Support of Motion to Dismiss, ECF No. 89, at 33.)
“When a plaintiff files repeated lawsuits involving the same
nucleus of operative facts, a district court has the inherent
power to enjoin him from filing vexatious lawsuits in the
future.” Lacy v. Principi, 317 F. Supp. 2d 444, 449
(S.D.N.Y. 2004) (citing Malley v. N.Y. City Bd. of Educ., 112
F.3d 69, 69 (2d Cir. 1997)).
Relevant factors to consider include: (1) the litigant’s
history of litigation and in particular whether it entailed
vexatious, harassing or duplicative lawsuits; (2) the
litigant’s motive in pursuing the litigation, e.g., whether
the litigant has an objective good faith expectation of
prevailing; (3) whether the litigant is represented by
counsel; (4) whether the litigant has caused needless
expenses to other parties or has posed an unnecessary
burden on the courts and their personnel; and (5) whether
other sanctions would be adequate to protect the courts and
other parties. Safir v. U.S. Lines, Inc., 792 F.2d 19, 24 (2d
Cir. 1986). “Ultimately, the question the court must answer
is whether a litigant who has a history of vexatious
litigation is likely to continue to abuse the judicial process
and harass other parties.” Safir, 792 F.2d at 24.
The two plaintiffs here—Weisskopf and Eliahu—are
not first-time litigants. Weisskopf previously filed a raft of
other lawsuits, all of which have alleged claims predicated
on facts substantially similar to the ones here, throughout
the country including a second one in this District.
Weisskopf v. Neeman, No. 11 Civ. 665 (W.D. Wise. Mar. 20,
2013); Weisskopf v. United Jewish Appeal-Fed’n of Jewish
Philanthropies of N.Y., Inc., 889 F. Supp. 2d 912 (S.D. Tex.
2012); Weisskopf v. Jewish Agency for Israel, Inc., No. 12
Civ. 6844 (S.D.N.Y. Apr. 30, 2013); Weisskopf v. Marcus,
No. 16 Civ. 6381 (N.D. Ill. 2016). Eliahu filed a similar
action in the Northern District of California which was
dismissed before he commenced this action. Eliahu v. State
of Israel, No. 14 Civ. 1636, 2015 WL 981517 (N.D. Cal. Mar.

25a
3, 2015), aff d, 659 F. App’x. 451 (9th Cir. Nov. 2, 2016).
Three factors weigh in favor of the injunctive relief
sought by Defendants. First, there is a clear history of
vexatious litigation, especially with regard to Weisskopf. In
one case, the Western District of Wisconsin chastised
Weisskopf for the “spurious, abusive nature of [his]
repeated, failed efforts to invoke federal court jurisdiction
in the United States over what is essentially an Israeli
family-law dispute.” Neeman, No. 11 Civ. 665, slip op. at
20. Eliahu, on the other hand, had the appeal in his only
other action summarily dismissed by the Ninth Circuit. All
of their cases are virtually carbon copies of one another—
they depict the same story, grievances, and requests for
relief that federal courts in the United States are not
authorized to grant.
Second, Weisskopf and Eliahu’s motives in pursuing
this litigation are quite clear. Having achieved minimal
success in Israel, they seek to find any forum in the United
States that will entertain any one of their claims. The RICO
statute’s treble damages provides an extra layer of
incentive, but also carves out a path to bypass Israel’s
ostensibly less generous remedial regimes. RJR Nabisco,
136 S. Ct. at 1206-07. However, their motive in bringing
essentially the same lawsuit time and again is misguided
because each successive action diminishes the likelihood
that they will prevail.
Third, the Defendants have had to incur the
necessary expense of defending these baseless lawsuits.
These are not insignificant costs. Even if a future lawsuit
contains claims that___________________________
are so meritless that it is considered dead on arrival,
Defendants nevertheless must retain counsel and incur the
time and cost of defending even the most frivolous claims in
federal court. They
should be spared from that burden given the spate of cases
—including those filed by other parties who are not

26a
plaintiffs here—that have roundly been rejected by courts
across the country.
See, e.g., Issaschar v. ELI Am. Friends of Israel Ass’n for
Child Prot., Inc., No. 13 Civ. 2415 (E.D. Pa. 2014);
Issaschar v. ELI Am. Friends of the Israel Ass’n for Child
Prot., Inc., No. 15
Civ. 6441 (E.D. Pa. 2016).
Accordingly, Plaintiffs Weisskopf and Eliahu are
enjoined from filing lawsuits in the future without this
Court’s prior authorization.
CONCLUSION
For the foregoing reasons, Defendants’ motion to
dismiss this action is granted.
Dated: December 28, 2017
New York, New York
SO ORDERED:
s/
WILLIAM H. PAULEY III
U.S.D.J.

27a
APPENDIX C
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
DOTAN NEWMAN, et al,
Plaintiffs,

16-cv7593
OPINION
AND ORDER

-againstJEWISH AGENCY FOR ISRAEL, et al, :
Defendants.
:

WILLIAM H. PAULEY III, United States District Judge:
Defendants Jewish Agency for Israel, et al., move to
dismiss Plaintiffs’ amended complaint. For the reasons that
follow, Defendants’ motion to dismiss is granted.
BACKGROUND
The operative facts stem exclusively from
proceedings in Israel. Plaintiffs are a group of seven
divorced fathers who allege that they are victims of a
conspiracy orchestrated by former and current Israeli
government officials and a number of charities. Plaintiffs
allege they were injured in various ways, ranging from
wage garnishment to restrictions on their travel.
Distilling the allegations in the amended complaint
(“Complaint”), which are accepted as true for purposes of
this motion, the mechanics of the conspiracy unfold in the
following manner: an Israeli family court enters an order
related to the dissolution of a Plaintiffs marriage—usually
for alimony and/or child support—imposing a financial
obligation on that Plaintiff. The agency responsible for
collecting payment on such obligations—the Debt
Collections Office in Israel—“wrongfully refuse[s] to accept

28a
[the] payments . . . and arbitrarily and capriciously,” absent
judicial approval, changes the amount owed and charges
excessive fines resulting from a failure to pay the modified
balance. (Amended Complaint (“Compl.”), ECF No. 40, U
8(b).) Israeli officials from various levels of the government
(the “Israeli Officials”) either control, oversee, or facilitate
the Debt Collections Office’s efforts to unlawfully collect
these “arbitrary and excessive debts.” (Compl. II 45.)
As Plaintiffs’ debts grow, the Debt Collections Office
deploys a number of coercive tactics to obtain payment,
ranging from making false arrests to threatening Plaintiffs’
family members. (Compl. U 8(b).) When Plaintiffs fail or
refuse to pay these debts, they face severe consequences: an
order freezing their bank accounts and credit cards,
garnishment of theirwages, imposition of excessive interest
rates, issuance of stop-travel orders prohibiting them from
traveling outside of Israel, and revocation of their driver’s
licenses. To add insult to injury, Plaintiffs are cast as
“deadbeat dads” and “abusive fathers” solely because of
their failure to honor their financial obligations.
Another part of the conspiracy involves actions taken
by various Jewish or Christian fundraising organizations
and individuals (the “Fundraising Defendants”). According
to the Complaint, the Fundraising Defendants offer money
and services to Plaintiffs’ ex-wives in exchange for their
agreement to assert “false claims and [ ] false allegations
against their exhusbands
relating to their payment of spousal and child support.”
(Compl. H 58.) The filing of these complaints authorizes the
Debt Collections Office to “ manipulate] the amounts of the
spousal and child support owed [by Plaintiffs] and thereby
provide examples for the Fundraising Defendants to raise
funds.” (Compl. 11 59.) Those examples—“deadbeat” fathers
who have abandoned their child support obligations—are
prominently advertised on billboards and through
communications soliciting donations on behalf of the

29a
Fundraising Defendants’ organizations.
As a result of their ex-wives’ complaints, Plaintiffs
lose custody of their children. (See e.g., Compl. HIT 8, 95.)
Consequently, their children are placed into childcare
services managed by the Fundraising Defendants who
profit from these arrangements. To maintain this lucrative
scheme, the Fundraising Defendants interfere with
Plaintiffs’ subsequent attempts to regain custody.
Plaintiffs assert six separate causes of action against
the Israeli Officials and Fundraising Defendants: (1)
negligent infliction of emotional distress; (2) intentional
infliction of
emotional distress; (3) aiding and abetting violations of the
Racketeer Influenced and Corrupt Organizations Act
(“RICO”); (4) violations of RICO; (5) extortion; and (6) mail
fraud.
DISCUSSION
I. Standard
To survive a motion to dismiss, the complaint must
plead “enough facts to state a claim to relief that is
plausible on its face.” Bell Atl. Corp. v. Twombly, 550 U.S.
544, 570 (2007). A “plausible” claim is “more than a sheer
possibility that a defendant has acted unlawfully” but is
less than a “probability requirement.” Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009). “With regard to pro se
complaints, the court construes the complaint liberally,
accepting
all factual allegations in the complaint as true, and drawing
all reasonable inferences in the plaintiff[s’] favor.”1 Jackson
Plaintiffs commenced this action pro se and represented
1
themselves in that capacity through the initial pretrial conference,
amendment of their Complaint, and opposition to Defendants’ motion
to dismiss. At the eleventh hour before oral argument on this motion,
however, an attorney appeared on their behalf, explaining that he
would represent them solely for purposes of arguing their opposition to
the motion to dismiss. Notwithstanding counsel’s belated appearance,

30a
v. Cnty. of Rockland, 450 F. App’x. 15, 18 (2d Cir. 2011).
II. Subject Matter Jurisdiction
Dismissal for lack of subject matter jurisdiction is
proper “when the district court lacks the statutory or
constitutional power to adjudicate [the claims].” Makarova
v. United States, 201 F.3d 110, 113 (2d Cir. 2000). The
Foreign Sovereign Immunities Act (“FSIA”) is the “sole
basis for obtaining jurisdiction over a foreign state in our
courts.” Argentine Rep. v. Amerada Hess Shipping Corp.,
488 U.S. 428, 434 (1989). Under the FSIA, a foreign state is
presumed to be immune from suit and is in fact immune
unless one or more of the FSIA’s exceptions apply. See 28
U.S.C. §§ 1604-1607; Saudi Arabia v. Nelson, 507 U.S. 349,
355 (1993). Such immunity extends to a foreign state’s
political subdivisions, agencies, and instrumentalities. See
28 U.S.C. § 1603(a).
Individuals acting in their official capacities are
considered agencies or instrumentalities of a foreign state.
Matar v. Dichter, 500 F. Supp. 2d 284, 289 (S.D.N.Y. 2007)
(“[NJumerous courts have found that immunity under the
FSIA extends also to agents of a foreign state acting in their
official capacities.”); Jungquist v. Sheikh Sultan Bin
Khalifa A1 Nahyan, 115 F.3d 1020, 1027 (D.C. Cir. 1997).
“At the time the FSIA was enacted, the common law of
foreign sovereign immunity recognized an individual
official’s entitlement to immunity for acts performed in his
official capacity. An immunity based on acts—rather than
status—does not depend on tenure in office.” Matar v.
Dichter, 563 F.3d 9, 14 (2d Cir. 2009). However, an official
is “not entitled to immunity under the FSIA for acts that
are not committed in an official capacity.” Jungquist, 115
F.3d at 1027 (internal citations omitted).
Plaintiffs contend that no such immunity applies
this Court construes the Plaintiffs’ pleadings and papers under the
liberal standard typically afforded to pro se litigants.

31a
here because the Israeli Officials’ alleged actions went
“beyond the scope of [their] official responsibilities.”
Leutwyler v. Office of Her Majesty Queen Rania AlAbdullah, 184 F. Supp. 2d 277, 287 (S.D.N.Y. 2001). Acts
exceeding the scope of an official’s duties are usually those
of “a personal and private nature.” Leutwyler, 184 F. Supp.
2d at 287. The focus, in determining whether the Israeli
Officials’ actions were properly within the ambit of their
official duties, should be on “the individual[s’] alleged
actions, rather than the alleged motives underlying them.”
Leutwyler, 184 F. Supp. 2d at 287.
Here, all of the Israeli Officials’ acts were taken in
their capacities as government officials. The Complaint
alleges that the Israeli Officials entered illegal orders, made
extrajudicial demands, arbitrarily altered amounts owed,
and assessed improper fees against Plaintiffs. (Compl. 11 45.)
The Israeli Officials also issued arrest warrants, froze bank
accounts, and garnished wages. (Compl. Hlf 106, 138, 210,
222.) Each of these actions represent official
conduct taken in response to Plaintiffs’ apparent failure to
comply with their child and spousal support obligations.
The authority to take such actions arises directly from their
positions as government officials tasked with overseeing the
Debt Collections Office, enforcing the child and spousal
support orders, and providing judicial recourse for unpaid
debts.
Plaintiffs characterize these actions as wrongful and
illegal, but such slights do not render the acts any less
official.2 See, e.g., In re Terrorist Attacks on Sept. 11, 2001,
122 F. Supp. 3d 181, 189 (S.D.N.Y. 2015) (“Such an
assertion is merely an artful way of implicating the jus
2. Nor do Plaintiffs allege that these acts amounted to a violation of a
jus cogen norm that might vitiate the Israeli Officials’ claim of
immunity. See Omari v. Ras A1 Khaimah Free Trade Zone Auth., 2017
WL 3896399, at *10 (S.D.N.Y. Aug. 18, 2017).

32a
cogens doctrine,” which is “not a limitation to a foreign
official’s right to immunity in U.S. courts where, as here,
that official acted in his official capacity.”). Indeed, if
Plaintiffs
could hurdle immunity simply by alleging that the acts
were illegal, “such a rule would eviscerate the protection of
foreign official immunity and would contravene federal law
on foreign official immunity.” Giraldo v. Drummond Co.,
Inc., 808 F. Supp. 2d 247, 250 (D.D.C. 2011). The
dispositive question is whether the defendant was a
government official authorized to take the actions at issue
here. The Israeli Officials—as bureaucrats tasked with
overseeing the Debt Collections Office and judges
empowered to remedy delinquencies associated with divorce
decrees—are entitled to immunity because their actions
were taken through official channels “presumptively in
furtherance of [the] enforcement of [Israel’s] laws.” Omari,
2017 WL 3896399, at *10. Without any basis for the
exercise of subject matter jurisdiction, Defendants’
motion to dismiss the claims against the Israeli Officials is
granted.
III. Personal Jurisdiction
While lack of subject matter jurisdiction suffices to
dispose of the claims against the Israeli Officials, it bears
noting that there also is no basis to exercise personal
jurisdiction. “Determining personal jurisdiction over a
foreign defendant in a federal-question case such as this
requires a two-step inquiry. First [the court] look[s] to the
law of the forum state to determine whether personal
jurisdiction will lie. If jurisdiction lies, [the court]
considers]
whether the district court’s exercise of personal jurisdiction
over a foreign defendant comports with due process
protections established under the United States
Constitution.” Licci ex rel.
Licci v. Lebanese Canadian Bank, SAL, 732 F.3d 161, 168

33a
(2d Cir. 2013).
New York’s C.P.L.R. § 302 applies to jurisdiction
over non-domiciliaries. Under C.P.L.R. § 302(a), a court
may exercise personal jurisdiction over any non-domiciliary
who, either “in person or through an agent”: (i) “transacts
any business within the state or contracts anywhere to
supply goods or services in the state”; (ii) “commits a
tortious act within the state”; (iii) “commits a tortious act
without the state causing injury to person or property
within the state ... if he [a] regularly does or solicits
business, or engages in any other persistent course of
conduct, or derives substantial revenue from goods used or
consumed or services rendered, in the state, or [b] expects
or should reasonably expect the act to have consequences in
the state and derives substantial revenue from interstate or
international commerce”; or (iv) “owns, uses or possesses
any real property situated within the state.” N.Y. C.P.L.R.
§ 302(a)(l)-(4).
None of the scenarios set forth in § 302(a) apply
here. With the exception of a single, unsubstantiated
reference to Defendant Livni’s residence in Brooklyn, the
Complaint is bereft of any allegation connecting the Israeli
Officials to the State of New York. Even if Plaintiffs sought
to use Livni’s Brooklyn residence as a hook for jurisdiction
under C.P.L.R. § 302(a)(4), such an attempt would fail
because they must demonstrate “a relationship between
the property and the cause of action sued upon.” Lancaster
v. Colonial Motor Freight Line, Inc., 177 A.D. 2d 152, 159
(N.Y. App. Div. 1st Dep’t 1992). The underlying allegations
lack any nexus to Livni’s home in Brooklyn.
Moreover, an exercise of personal jurisdiction would
not comport with constitutional due process. The
Complaint makes no showing of the minimum contacts
necessary to “justify the court’s exercise of personal
jurisdiction” over any of the Defendants.
Elsevier, Inc. v. Grossman, 77 F. Supp. 3d 331, 347

34a
(S.D.N.Y. 2015). Even under a liberal construction,
Plaintiffs’ allegations fall woefully short of establishing that
the Israeli Officials “purposefully avail[ed] [themselves] of
the privilege of conducting activities” within New York,
thus “invoking the benefits and protections of its laws . . .
such that [they] should reasonably
anticipate being haled into court” here. Best Van Lines,
Inc. v. Walker, 490 F.3d 239, 242 (2d Cir. 2007) (quoting
Burger King Corp. v. Rudzewicz, 471 U.S. 462, 474-75
(1985)).
Additionally, maintaining jurisdiction over Israeli Officials
would be unreasonable. Their actions—which form the
primary basis for the requested relief in this action—were
taken exclusively in Israel in the course of their duties as
current and former government officials. Compelling these
defendants to litigate Plaintiffs’ claims in New York would
impose excessive burdens. Nor could Plaintiffs litigate this
action anywhere else in the United States because no
state has an interest in adjudicating this case. See Asahi
Metal Indus. Co. v. Superior Court, 480 U.S. 102, 113-14
(1987).
The federal grounds for jurisdiction are equally
unavailing. The RICO statute does not, by itself, confer
personal jurisdiction. Laborers Local 17 Health & Ben.
Fund v. Philip Morris, Inc., 26 F. Supp. 2d 593, 601
(S.D.N.Y. 1998) (“Plaintiffs asserting RICO claims against
foreign defendants must rely on the long-arm statute of the
state in which they filed suit.”). And the federal long arm
statute, under Rule 4(k)(2), provides no basis for
jurisdiction on the facts alleged in the Complaint. While the
rule authorizes personal jurisdiction for federal claims if
doing so is “consistent with the United States
Constitution,” Plaintiffs’ failure to establish
minimum contacts and the reasonableness of exercising
jurisdiction under C.P.L.R. § 302 extends with equal force
to the federal long arm statute. BMW of N. Am. LLC v. MW

35a
Courage, 2017 WL 2223052, at *3 (S.D.N.Y. May 19, 2017)
(requiring sufficient contacts with the United States as a
whole); Porina v. Marward Shipping Co., 521 F.3d 122, 127
(2d Cir. 2008) (courts
must consider whether “the assertion of personal
jurisdiction is reasonable under the circumstances of the
particular case”). Accordingly, all of Plaintiffs’ claims
against the Israeli
Officials are also dismissed for lack of personal jurisdiction.
IV. Civil RICO
Plaintiffs assert a civil RICO claim against both the
Israeli Officials and the Fundraising Defendants. Because
all claims against the Israeli Officials are dismissed for lack
of subject matter and personal jurisdiction, this Court
focuses its analysis on the civil RICO claim as it pertains to
the Fundraising Defendants.
Relief under the civil RICO statute is appropriate if
the Plaintiffs can establish: (1) that they suffered an injury
to business or property; (2) that their injury is a domestic
one; and
(3) that the injury was proximately caused by the
defendants’ violation of 18 U.S.C. § 1962. See 18 U.S.C. §
1964(c). The third requirement—violations of 18 U.S.C. §
1962—lays out the
elements of a substantive RICO violation, including (1) that
defendants were employed by, or associated with, an
enterprise affecting interstate commerce; and (2) that they
participated in the
conduct of the enterprise’s affairs through at least two
predicate acts of racketeering activity. See 18 U.S.C. §
1962(b)-(c).
Plaintiffs’ civil RICO claim fails at the first step—
alleging facts to show a domestic injury to business or
property. As an initial matter, it is difficult to discern the
exact nature of Plaintiffs’ injury. Plaintiffs allege a plethora
of injuries resulting from the Fundraising

36a
Defendants’ activities—harassment, garnishment, personal
injuries, false arrest, and asset freezes, among others. But
only injuries to business or property are covered by the
RICO statute.
Bascunan v. Elsaca, 874 F.3d 806, 817 (2d Cir. 2017) (“A
plaintiff bringing a civil RICO claim must allege an injury
to his ‘business or property’; he cannot, for example,
recover for ‘personal
injuries.’”). Therefore, to the extent the Plaintiffs seek
relief for “personal injury or harassment, not damage to
business or property,” their RICO claims fail on grounds
that such injuries are
“not [of] the sort. .. cognizable under RICO.” Savine-Rivas
v. Farina, 1992 WL 193668, at *3 (E.D.N.Y. Aug. 4, 1992);
see also Burdick v. Am. Exp. Co., 865 F.2d 527, 529 (2d Cir.
1989)
(interference with business and ability to earn living are
“type[s] of harm [that are] simply too remotely related to
the predicate acts of mail and securities fraud to support a
claim under RICO”).
But even the alleged injuries to business or property
fail to make out a RICO injury because they are not
domestic injuries. For example, the Complaint alleges that
Defendants “took all the money in [Plaintiff Weisskopfs]
bank account[,] intentionally leaving a
negative balance in his bank account” without making any
reference to the account’s location. (Compl. H 136.)
Plaintiffs vaguely allude to other bank and financial
accounts throughout the
Complaint. (See e.g., Compl. 1IH 152, 176, 188, 196, 207, 210,
213.) From what this Court can gather, the thrust of
Plaintiffs’ grievance is that the Defendants’ actions saddled
them with outsized debts arising from fictitious orders that
ultimately forced them to liquidate their assets leaving
them in dire financial straits. But while “injury to tangible
property is generally a domestic injury only if the property

37a
was physically located in the United States,” the Plaintiffs
offer no specific allegations concerning where their
accounts were located or used. Bascunan, 874 F.3d at 819.
Moreover, to the extent that Plaintiffs seek to
establish a domestic connection by alleging that some of the
Fundraising Defendants located in the United States made
off with
illicit proceeds derived from Plaintiffs’ assets, the “only
domestic connections alleged here were acts of the
defendant[s].” Bascunan, 874 F.3d at 819 (emphasis
original). It improperly turns the
focus on the location of the Defendants, and not, as it
should, on the location of Plaintiffs’ property or financial
interests. Bascunan, 874 F.3d at 819.
Finally, the civil RICO claim fails because the
Plaintiffs have not sufficiently established the requisite
predicate acts. The Complaint ticks off more than a dozen
criminal acts,
ranging from financial institution fraud to slavery, but
“RICO claims must be pled with specificity.” Jet One Grp.,
Inc. v. Halcyon Jet Holdings, Inc., 2009 WL 2524864, at *4
(E.D.N.Y. Aug. 14, 2009). The Complaint is particularly
deficient with respect to predicate acts pertaining to fraud,
since those acts “must be pled in accordance with the
higher pleading requirements of Rule 9(b).” Morrow v.
Black, 742 F. Supp. 1199, 1203 (E.D.N.Y. 1990). But
beyond alleging in conclusory fashion that the Defendants
devised a fraud using the mails and wires, the Complaint
offers scant detail on the defendants, the communications,
and the purpose
or substance of such communications to meet the
heightened standard under which mail fraud or wire fraud
may be alleged as predicate acts. Rivera v. Golden Nat.
Mortg. Banking Corp., 2005
WL 1514043, at *3 (S.D.N.Y. June 27, 2005) (“Plaintiff
states broadly that Defendants . .. engaged in a secret

38a
scheme of conduct. . . but neglects to include names, dates
or even allege use of the mails or a telephone.”); Wexner v.
First Manhattan Co., 902 F.2d 169, 172-73 (2d Cir. 1990)
(claim of mail or wire fraud must specify the content, date,
and place of any alleged
misrepresentation and identity of persons making them).
Mathon v. Feldstein, 303 F. Supp. 2d 317 (E.D.N.Y.
2004), is instructive to the extent it involved a civil RICO
claim asserted by a pro se plaintiff who actually alleged
with some specificity (more than the Plaintiffs here) the
facts underlying the mail and wire fraud predicate acts. But
even so, that court found such allegations insufficient
because the plaintiff failed “to set forth the content of the
items mailed and specify how each of the items were false
and misleading,” or to “identify the dates that the[] alleged
conversations [took] place, where the phone calls [or
emails] took place and that during these phone calls [or
email communications],
the defendants knowingly made false representations to the
plaintiff.” Mathon, 303 F. Supp. 2D at 323-24. Even under
a liberal construction of the Complaint, Plaintiffs similarly
fail to allege
with sufficient specificity the predicate acts to their RICO
claim.
Accordingly, the civil RICO claim against the
Fundraising Defendants is dismissed.
V. No Private Right of Action
Plaintiffs assert a number of claims to which there
are no private rights of action. Each claim is addressed in
turn.
A. Aiding and Abetting a RICO Violation
The Complaint alleges a claim for aiding and
abetting a RICO violation against the Fundraising
Defendants. However, it has long been held by courts in
this District and across the country that “there is no
private right of action for aiding and abetting a RICO

39a
violation.” Goldfine v. Sichenzia, 118 F. Supp. 2d 392, 406
(S.D.N.Y. 2000) (citing LaSalle Nat’l Bank v. Duff & Phelps
Credit Rating Co., 951 F. Supp. 1071, 1088-89 (S.D.N.Y.
1996)). Accordingly, Count Three of the Complaint is
dismissed.
B. Extortion
Plaintiffs assert an extortion claim against both the
Israeli Officials and the Fundraising Defendants. But
extortion is a criminal offense and may not be converted
into a private civil cause of action. Williams v. Jurow, 2007
WL 5463418, at *13 (S.D.N.Y. June 29, 2007) (There “is no
private right of action under the federal extortion
statute.”). In fact, under New York law, “such claim is
patently frivolous as extortion is a criminal offense, and
may not be pled as a separate cause of action in a civil
case.” Naples v. Stefanelli, 972 F. Supp. 2D 373, 401
(E.D.N.Y. 2013). Accordingly, Count Five of the Complaint
is dismissed.
C. Mail Fraud
Plaintiffs’ final cause of action alleged in the
Complaint is a claim for mail fraud pursuant to 18 U.S.C.
§§ 1341 and 1343 against the Fundraising Defendants. But
as with the prior claims, a mail fraud claim is not
actionable as a private cause of action. The mail fraud
statute is a “bare criminal statute with no indication of any
intent to create a private cause of action, in either the
section in question or any other section.” Brandstetter v.
Bally Gaming, Inc.,
2012 WL 4173193, at *6 (E.D.N.Y. Aug. 23, 2012).
Accordingly, Count Six of the Complaint is dismissed.
VI. Pre-Suit Injunction
In addition to dismissal, Defendants seek a “finding
that [Plaintiffs’] claims are frivolous and an order barring
Messrs. Weisskopf and Eliahu from filing future lawsuits
without the Court’s prior authorization.” (Def. Memo, of
Law in Support of Motion to Dismiss, ECF No. 89, at 33.)

40a
“When a plaintiff files repeated lawsuits involving the same
nucleus of operative
facts, a district court has the inherent power to enjoin him
from filing vexatious lawsuits in the future.” Lacy v.
Principi, 317 F. Supp. 2d 444, 449 (S.D.N.Y. 2004) (citing
Malley v. N.Y. City
Bd. of Educ., 112 F.3d 69, 69 (2d Cir. 1997)).
Relevant factors to consider include: (1) the litigant’s
history of litigation and in particular whether it entailed
vexatious, harassing or duplicative lawsuits; (2) the
litigant’s motive in pursuing the litigation, e.g., whether
the litigant has an objective good faith expectation of
prevailing; (3) whether the litigant is represented by
counsel; (4) whether the litigant has caused needless
expenses to other parties or has posed an unnecessary
burden on the courts and their personnel; and (5) whether
other sanctions would be adequate to protect the courts and
other parties. Safir v. U.S. Lines, Inc., 792 F.2d 19, 24 (2d
Cir. 1986). “Ultimately, the question the court must answer
is whether a litigant who has a history of vexatious
litigation is likely to continue to abuse the judicial process
and harass other parties.” Safir, 792 F.2d at 24.
The two plaintiffs here—Weisskopf and Eliahu—are
not first-time litigants. Weisskopf previously filed a raft of
other lawsuits, all of which have alleged claims predicated
on facts substantially similar to the ones here, throughout
the country including a second one in this District.
Weisskopf v. Neeman, No. 11 Civ. 665 (W.D. Wise. Mar. 20,
2013); Weisskopf v. United Jewish Appeal-Fed’n of Jewish
Philanthropies of N.Y., Inc., 889 F. Supp. 2d 912 (S.D. Tex.
2012); Weisskopf v. Jewish Agency for Israel, Inc., No. 12
Civ. 6844 (S.D.N.Y. Apr. 30, 2013); Weisskopf v. Marcus,
No. 16 Civ. 6381 (N.D. Ill. 2016). Eliahu filed a similar
action in the Northern District of California which was
dismissed before he commenced this action. Eliahu v. State
of Israel, No. 14 Civ. 1636, 2015 WL 981517 (N.D. Cal. Mar.

41a
3, 2015), aff d, 659 F. App’x. 451 (9th Cir. Nov. 2, 2016).
Three factors weigh in favor of the injunctive relief
sought by Defendants. First, there is a clear history of
vexatious litigation, especially with regard to Weisskopf. In
one case, the Western District of Wisconsin chastised
Weisskopf for the “spurious, abusive nature of [his]
repeated, failed efforts to invoke federal court jurisdiction
in the United States over what is essentially an Israeli
family-law dispute.” Neeman, No. 11 Civ. 665, slip op. at
20. Eliahu, on the other hand, had the appeal in his only
other action summarily dismissed by the Ninth Circuit. All
of their cases are virtually carbon copies of one another—
they depict the same story,
grievances, and requests for relief that federal courts in the
United States are not authorized to grant.
Second, Weisskopf and Eliahu’s motives in pursuing
this litigation are quite clear. Having achieved minimal
success in Israel, they seek to find any forum in the United
States that will entertain any one of their claims. The RICO
statute’s treble damages provides an extra layer of
incentive, but also carves out a path to bypass Israel’s
ostensibly less generous remedial regimes. RJR Nabisco,
136 S. Ct. at 1206-07. However, their motive in bringing
essentially the same lawsuit time and again is misguided
because each successive action diminishes the likelihood
that they will prevail.
Third, the Defendants have had to incur the
necessary expense of defending these baseless lawsuits.
These are not insignificant costs. Even if a future lawsuit
contains claims that
are so meritless that it is considered dead on arrival,
Defendants nevertheless must retain counsel and incur the
time and cost of defending even the most frivolous claims in
federal court. They
should be spared from that burden given the spate of cases
—including those filed by other parties who are not

42a
plaintiffs here—that have roundly been rejected by courts
across the country.
See, e.g., Issaschar v. ELI Am. Friends of Israel Ass’n for
Child Prot., Inc, No. 13 Civ. 2415 (E.D. Pa. 2014);
Issaschar v. ELI Am. Friends of the Israel Ass’n for Child
Prot, Inc, No. 15
Civ. 6441 (E.D. Pa. 2016).
Accordingly, Plaintiffs Weisskopf and Eliahu are
enjoined from filing lawsuits in the future without this
Court’s prior authorization.
CONCLUSION
For the foregoing reasons, Defendants’ motion to
dismiss this action is granted. The parties are directed to
submit a proposed pre-suit injunctive order by December
15, 2017. The Clerk of Court is directed to terminate the
motion pending at ECF No. 88.
CONCLUSION
For the foregoing reasons, Defendants’ motion to
dismiss this action is granted.
Dated: December 8, 2017
New York, New York
SO ORDERED:
s/
WILLIAM H. PAULEY III
U.S.D.J.

43a
APPENDIX D
I. Racketeer Influenced and Corrupt Organizations
18 U.S. Code § 1961.Definitions
(1) “racketeering activity” means (A) any act or threat
involving murder, kidnapping, gambling, arson, robbery,
bribery, extortion, dealing in obscene matter, or dealing
in a controlled substance or listed chemical (as defined in
section 102 of the Controlled Substances Act), which is
chargeable under State law and punishable by
imprisonment for more than one year; (B) any act which
is indictable under any of the following provisions of title
18, United States Code: Section 201 (relating to bribery),
section 224 (relating to sports bribery), sections 471, 472,
and 473 (relating to counterfeiting), section 659 (relating
to theft from interstate shipment) if the act indictable
under section 659 is felonious, section 664 (relating to
embezzlement from pension and welfare funds), sections
891-894 (relating to extortionate credit transactions),
section 1028 (relating to fraud and related activity in
connection with identification documents), section 1029
(relating to fraud and related activity in connection with
access devices), section 1084 (relating to the transmission
of gambling information), section 1341 (relating to mail
fraud), section 1343 (relating to wire fraud), section 1344
(relating to financial institution fraud), section 1351
(relating to fraud in foreign labor contracting), section
1425 (relating to the procurement of citizenship or
nationalization unlawfully), section 1426 (relating to the
reproduction of naturalization or citizenship papers),
section 1427 (relating to the sale of naturalization or
citizenship papers), sections 1461-1465 (relating to
obscene matter), section 1503 (relating to obstruction of
justice), section 1510 (relating to obstruction of criminal
investigations), section 1511 (relating to the obstruction
of State or local law enforcement), section 1512 (relating

44a
to tampering with a witness, victim, or an informant),
section 1513 (relating to retaliating against a witness,
victim, or an informant), section 1542 (relating to
falsestatement in application and use of passport),
section 1543 (relating to forgery or false use of passport),
section 1544 (relating to misuse of passport), section 1546
(relating to fraud and misuse of visas, permits, and other
documents), sections 1581-1592 (relating to peonage,
slavery, and trafficking in persons).,[1] sections 1831 and
1832 (relating to economic espionage and theft of trade
secrets), section 1951 (relating to interference with
commerce, robbery, or extortion), section 1952 (relating
to racketeering), section 1953 (relating to interstate
transportation of wagering paraphernalia), section 1954
(relating to unlawful welfare fund payments), section
1955 (relating to the prohibition of illegal gambling
businesses), section 1956 (relating to the laundering of
monetary instruments), section 1957 (relating to
engaging in monetary transactions in property derived
from specified unlawful activity), section 1958 (relating
to use ofinterstate commerce facilities in the commission
of murder-for-hire), section 1960 (relating to illegal
money transmitters), sections 2251, 2251A, 2252, and
2260 (relating to sexual exploitation of children), sections
2312 and 2313 (relating to interstate transportation of
stolen motor vehicles), sections 2314 and 2315 (relating
to interstate transportation of stolen property), section
2318 (relating to trafficking in counterfeit labels for
phonorecords, computer programs or computer program
documentation or packaging and copies of motion
pictures or other audiovisual works), section 2319
(relating to criminal infringement of a copyright), section
2319A (relating to unauthorized fixation of and
trafficking in sound recordings and music videos of live
musical performances), section 2320 (relating to
trafficking in goods or services bearing counterfeit

45a
marks), section 2321 (relating to trafficking in certain
motor vehicles or motor vehicle parts), sections 23412346 (relating to trafficking in contraband cigarettes),
sections 2421-24 (relating to white slave traffic), sections
175-178 (relating to biological weapons), sections 229229F (relating to chemical weapons), section 831
(relating to nuclear materials), (C) any act which is
indictable under title 29, United States Code, section 186
(dealing with restrictions on payments and loans to
labor organizations) or section 501(c) (relating to
embezzlement from union funds), (D)
any offense involving fraud connected with a case under
title 11 (except a case under section 157 of this title),
fraud in the sale of securities, or the felonious
manufacture, importation, receiving, concealment,
buying, selling, or otherwise dealing in a controlled
substance or listed chemical (as defined in section 102 of
the Controlled Substances Act), punishable under any
law of the UnitedStates, (E) any act which is indictable
under the Currency and Foreign Transactions Reporting
Act, (F) any act which is indictable under
the Immigration and Nationality Act, section 274
(relating to bringing in and harboring certain aliens),
section 277 (relating to aiding or assisting certain aliens
to enter the United States), or section 278 (relating to
importation of alien for immoral purpose) if the act
indictable under such section of such Act was committed
for the purpose of financial gain, or (G) any act that is
indictable under any provision listed in section 2332b(g)
(5)(B);
(2) “State” means any State of the United States, the
District of Columbia, the Commonwealth of Puerto Rico,
any territory or possession of the United States, any
political subdivision, or any department, agency, or
instrumentality thereof;

46a
(3) “person” includes any individual or entity capable of
holding a legal or beneficial interest in property;
(4) “enterprise” includes any individual, partnership,
corporation, association, or other legal entity, and any
union or group of individuals associated in fact although
not a legal entity;
(5) “pattern of racketeering activity” requires at least
two acts of racketeering activity, one of which occurred
after the effective date of this chapter and the last of
which occurred within ten years (excluding any period of
imprisonment) after the commission of a prior act
of racketeering activity;
(6) “unlawful debt” means a debt (A) incurred or
contracted in gambling activity which was in violation of
the law of the United States, a State or political
subdivision thereof, or which is unenforceable under
State or Federal law in whole or in part as to principal or
interest because of the laws relating to usury, and (B)
which was incurred in connection with the business of
gambling in violation of the law of the United States, a
State or political subdivision thereof, or the business of
lending money or a thing of value at a rate usurious
under State or Federal law, where the usurious rate is at
least twice the enforceable rate;
(7) “racketeering investigator” means any attorney or
investigator so designated by the Attorney General and
charged with the duty of enforcing or carrying into effect
this chapter;
(8) “racketeering investigation” means any inquiry
conducted by any racketeering investigator for the
purpose of ascertaining whether any person has been
involved in any violation of this chapter or of any final
order, judgment, or decree of any court of the United

47a
States, duly entered in any case or proceeding arising
under this chapter;
(9) “documentary material” includes any book, paper,
document, record, recording, or other material; and
(10) “Attorney General” includes the Attorney General of
the United States, the Deputy Attorney General of the
United States, the Associate Attorney General of the
United States, any Assistant Attorney General of the
United States, or any employee of the Department of
Justice or any employee of any department or agency of
the United States so designated by the Attorney General
to carry out the powers conferred on the Attorney
General by this chapter. Any department or agency so
designated may use in investigations authorized by this
chapter either the investigative provisions of this chapter
or the investigative power of such department or agency
otherwise conferred by law.
18 U.S. Code § 1962.Prohibited activities
(a) It shall be unlawful for any person who has received
any income derived, directly or indirectly, from a pattern
of racketeering activity or through collection of an
unlawful debt in which such person has participated as a
principal within the meaning of section 2, title 18,
UnitedStates Code, to use or invest, directly or indirectly,
any part of such income, or the proceeds of such income,
in acquisition of any interest in, or the establishment or
operation of, any enterprise which is engaged in, or the
activities of which affect, interstate or foreign
commerce.A purchase of securities on the open market
for purposes of investment, and without the intention of
controlling or participating in the control of the issuer, or
of assisting another to do so, shall not be unlawful under
this subsection if the securities of the issuer held by the
purchaser, the members of his immediate family, and his

48a
or their accomplices in any pattern or racketeering
activity or the collection of an unlawful debt after such
purchase do not amount in the aggregate to one percent
of the outstanding securities of any one class, and do not
confer, either in law or in fact, the power to elect one or
more directors of the issuer.
(b) It shall be unlawful for any person through a pattern
of racketeering activity or through collection of an
unlawful debt to acquire or maintain, directly or
indirectly, any interest in or control of
any enterprise which is engaged in, or the activities of
which affect, interstate or foreign commerce.
(c) It shall be unlawful for any person employed by or
associated with any enterprise engaged in, or the
activities of which affect, interstate or foreign
commerce,to conduct or participate, directly or indirectly,
in the conduct of such enterprise’s affairs through a
pattern of racketeering activity or collection of unlawful
debt.
(d) It shall be unlawful for any person to conspire to
violate any of the provisions of subsection (a), (b), or (c)
of this section.
18 U.S. Code § 1964.Civil remedies
(a) The district courts of the United States shall have
jurisdiction to prevent and restrain violations of section
1962 of this chapter by issuing appropriate orders,
including, but not limited to: ordering any person to
divest himself of any interest, direct or indirect, in
anyenterprise; imposing reasonable restrictions on the
future activities or investments of any person, including,
but not limited to, prohibiting any person from engaging
in the same type of endeavor as the enterprise engaged
in, the activities of which affect interstate or foreign
commerce;or ordering dissolution or reorganization of

49a
anyenterprise, making due provision for the rights of
innocent persons.
(b) The Attorney General may institute proceedings
under this section. Pending final determination thereof,
the court may at any time enter such restraining orders
or prohibitions, or take such other actions, including the
acceptance of satisfactory performance bonds, as it shall
deem proper.
(c) Any person injured in his business or property by
reason of a violation of section 1962 of this chapter may
sue therefor in any appropriate United States district
court and shall recover threefold the damages he sustains
and the cost of the suit, including a reasonable attorney’s
fee, except that no person may rely upon any conduct
that would have been actionable as fraud in the purchase
or sale of securities to establish a violation of section
1962. The exception contained in the preceding sentence
does not apply to an action against any person that is
criminally convicted in connection with the fraud, in
which case the statute of limitations shall start to run on
the date on which the conviction becomes final.
(d) A final judgment or decree rendered in favor of the
United States in any criminal proceeding brought by the
United States under this chapter shall estop the
defendant from denying the essential allegations of the
criminaloffense in any subsequent civil proceeding
brought by the United States.
II. 18 U.S.C.§1341
Whoever, having devised or intending to devise
any scheme or artifice to defraud, or for obtaining
money or property by means of false or fraudulent
pretenses, representations, or promises, or to sell,

50a
dispose of, loan, exchange, alter, give away,
distribute, supply, or furnish or procure for unlawful
use any counterfeit or spurious coin, obligation,
security, or other article, or anything represented to
be or intimated or held out to be such counterfeit or
spurious article, for the purpose of executing such
scheme or artifice or attempting so to do, places in
any post office or authorized depository for mail
matter, any matter or thing whatever to be sent or
delivered by the Postal Service, or deposits or causes
to be deposited any matter or thing whatever to be
sent or delivered by any private or commercial
interstate carrier, or takes or receives therefrom, any
such matter or thing, or knowingly causes to be
delivered by mail or such carrier according to the
direction thereon, or at the place at which it is
directed to be delivered by the person to whom it is
addressed, any such matter or thing, shall be fined
under this title or imprisoned not more than 20
years, or both. If the violation occurs in relation to, or
involving any benefit authorized, transported,
transmitted, transferred, disbursed, or paid in
connection with, a presidentially declared major
disaster or emergency (as those terms are defined in
section 102 of the Robert T. Stafford Disaster Relief
and Emergency Assistance Act (42 U.S.C. 5122)), or
affects a financial institution, such person shall be
fined not more than $1,000,000 or imprisoned not
more than 30 years, or both.
III. Hobbs Act (18 U.S. Code § 1951)
(a) Whoever in any way or degree obstructs, delays,
or affects commerce or the movement of any article
or commodity in commerce,
by robbery or extortion or attempts or conspires so to

51a
do, or commits or threatens physical violence to any
person or property in furtherance of a plan or
purpose to do anything in violation of this section
shall be fined under this title or imprisoned not more
than twenty years, or both.
(b)As used in this section—
(1) The term “robbery” means the unlawful taking or
obtaining of personal property from the person or in
the presence of another, against his will, by means of
actual or threatened force, or violence, or fear of
injury, immediate or future, to his person or
property, or property in his custody or possession, or
the person or property of a relative or member of his
family or of anyone in his company at the time of the
taking or obtaining.
The term “extortion” means the obtaining of
property from another, with his consent, induced by
wrongful use of actual or threatened force, violence,
or fear, or under color of official right.
(2)

The term “commerce” means commerce within
the District of Columbia, or any Territory or
Possession of the United
States; all commerce between any point in
a State, Territory, Possession, or the District of
Columbia and any point outside thereof;
all commercebetween points within the
same State through any place outside such State; and
all other commerce over which the United States has
jurisdiction.
(3)

IV. Foreign Sovereign Immunities Act (FSIA)
28 U.S.C. §1602
The Congress finds that the determination by United

52a
Statescourts of the claims of foreign states to
immunity from the jurisdiction of such courts would
serve the interests of justice and would protect the
rights of both foreign states and litigants in United
States courts. Under international law,states are not
immune from the jurisdiction of
foreign courtsinsofar as their commercial activities
are concerned, and their commercial property may be
levied upon for the satisfaction of judgments
rendered against them in connection with their
commercial activities. Claims of foreign states to
immunity should henceforth be decided by courts of
the United States and of the States in conformity
with the principles set forth in this chapter.
28 U.S.C. §1603
For purposes of this chapter—
(a) A “foreign state”, except as used in section 1608
of this title, includes a political subdivision of a
foreign stateor an agency or instrumentality of a
foreign state as defined in subsection (b).
(b) An “agency or instrumentality of a foreign state”
means any entity—
(1) which is a separate legal person, corporate
or otherwise, and
(2) which is an organ of a foreign state or
political subdivision thereof, or a majority of whose
shares or other ownership interest is owned by a
foreign state or political subdivision thereof, and
(3) which is neither a citizen of a State of
the United States as defined in section 1332 (c) and
(e) of this title, nor created under the laws of any
third country.
(c) The “United States” includes all territory and
waters, continental or insular, subject to the
jurisdiction of the United States.
(d) A “commercial activity” means either a regular

53a
course of commercial conduct or a particular
commercial transaction or act. The commercial
character of an activity shall be determined by
reference to the nature of the course of conduct or
particular transaction or act, rather than by
reference to its purpose.
(e) A “commercial activity carried on in the United
States by a foreign state” means commercial
activity carried on by such state and having
substantial contact with theUnited States.
28 U.S.C. §1604
Subject to existing international agreements to which
the United States is a party at the time of enactment
of this Act a foreign state shall be immune from the
jurisdiction of thecourts of the United States and of
the States except as provided in
sections 1605 to 1607 of this chapter.
28 U.S.C. §1605
(a) A foreign state shall not be immune from the
jurisdiction of courts of the United States or of the
States in any case—
(1) in which the foreign state has waived its
immunity either explicitly or by implication,
notwithstanding any withdrawal of the waiver which
the foreign state may purport to effect except in
accordance with the terms of the waiver;
(2) in which the action is based upon a commercial
activity carried on in the United States by the foreign
state; or upon an act performed in the United States
in connection with a commercial activity of the
foreign state elsewhere; or upon an act outside the
territory of the United States in connection with a
commercial activity of the foreign state elsewhere and
that act causes a direct effect in the United States;
(3) in which rights in property taken in violation of
international law are in issue and that property or

54a
any property exchanged for such property is present
in the United States in connection with a commercial
activity carried on in the United States by the foreign
state; or that property or any property exchanged for
such property is owned or operated by an agency or
instrumentality of the foreign state and that agency
or instrumentality is engaged in a commercial
activity in the United States;
(4) in which rights in property in the United States
acquired by succession or gift or rights in immovable
property situated in the United States are in issue;
(5) not otherwise encompassed in paragraph (2)
above, in which money damages are sought against a
foreign state for personal injury or death, or damage
to or loss of property, occurring in the United States
and caused by the tortious act or omission of that
foreign state or of any official or employee of that
foreign state while acting within the scope of his
office or employment; except this paragraph shall not
apply to—
(A) any claim based upon the exercise or performance
or the failure to exercise or perform a discretionary
function regardless of whether the discretion be
abused, or
(B) any claim arising out of malicious prosecution,
abuse of process, libel, slander, misrepresentation,
deceit, or interference with contract rights; or
(6) in which the action is brought, either to enforce
an agreement made by the foreign state with or for
the benefit of a private party to submit to arbitration
all or any differences which have arisen or which may
arise between the parties with respect to a defined
legal relationship, whether contractual or not,
concerning a subject matter capable of settlement by
arbitration under the laws of the United States, or to
confirm an award made pursuant to such an

55a
agreement to arbitrate, if (A) the arbitration takes
place or is intended to take place in the United
States, (B) the agreement or award is or may be
governed by a treaty or other international
agreement in force for the United States calling for
the recognition and enforcement of arbitral awards,
(C) the underlying claim, save for the agreement to
arbitrate, could have been brought in a United States
court under this section or section 1607, or (D)
paragraph (1) of this subsection is otherwise
applicable.
(b) A foreign state shall not be immune from the
jurisdiction of the courts of the United States in any
case in which a suit in admiralty is brought to enforce
a maritime lien against a vessel or cargo of the
foreign state, which maritime lien is based upon a
commercial activity of the foreign state:Provided,
That—
(1) notice of the suit is given by delivery of a copy of
the summons and of the complaint to the person, or
his agent, having possession of the vessel or cargo
against which the maritime lien is asserted; and if the
vessel or cargo is arrested pursuant to process
obtained on behalf of the party bringing the suit, the
service of process of arrest shall be deemed to
constitute valid delivery of such notice, but the party
bringing the suit shall be liable for any damages
sustained by the foreign state as a result of the arrest
if the party bringing the suit had actual or
constructive knowledge that the vessel or cargo of a
foreign state was involved; and
(2) notice to the foreign state of the commencement
of suit as provided in section 1608 of this title is
initiated within ten days either of the delivery of
notice as provided in paragraph (1) of this subsection
or, in the case of a party who was unaware that the

56a
vessel or cargo of a foreign state was involved, of the
date such party determined the existence of the
foreign state’s interest.
(c) Whenever notice is delivered under subsection (b)
(1), the suit to enforce a maritime lien shall
thereafter proceed and shall be heard and determined
according to the principles of law and rules of practice
of suits in rem whenever it appears that, had the
vessel been privately owned and possessed, a suit in
rem might have been maintained. A decree against
the foreign state may include costs of the suit and, if
the decree is for a money judgment, interest as
ordered by the court, except that the court may not
award judgment against the foreign state in an
amount greater than the value of the vessel or cargo
upon which the maritime lien arose. Such value shall
be determined as of the time notice is served under
subsection (b)(1). Decrees shall be subject to appeal
and revision as provided in other cases of admiralty
and maritime jurisdiction. Nothing shall preclude the
plaintiff in any proper case from seeking relief in
personam in the same action brought to enforce a
maritime lien as provided in this section.
(d) A foreign state shall not be immune from the
jurisdiction of the courts of the United States in any
action brought to foreclose a preferred mortgage, as
defined in section 31301 of title 46. Such action shall
be brought, heard, and determined in accordance
with the provisions of chapter 313 of title 46 and in
accordance with the principles of law and rules of
practice of suits in rem, whenever it appears that had
the vessel been privately owned and possessed a suit
in rem might have been maintained.
[(e), (f) Repealed. Pub. L. 110-181, div. A, title X,
§ 1083(b)(1)(B), Jan. 28, 2008, 122 Stat. 341.]
(g)Limitation on Discovery.—

57a
(1)In general.—
(A) Subject to paragraph (2), if an action is filed that
would otherwise be barred by section 1604, but for
section 1605A or section 1605B, the court, upon
request of the Attorney General, shall stay any
request, demand, or order for discovery on the United
States that the Attorney General certifies would
significantly interfere with a criminal investigation or
prosecution, or a national security operation, related
to the incident that gave rise to the cause of action,
until such time as the Attorney General advises the
court that such request, demand, or order will no
longer so interfere.
(B) A stay under this paragraph shall be in effect
during the 12-month period beginning on the date on
which the court issues the order to stay discovery.
The court shall renew the order to stay discovery for
additional 12-month periods upon motion by the
United States if the Attorney General certifies that
discovery would significantly interfere with a
criminal investigation or prosecution, or a national
security operation, related to the incident that gave
rise to the cause of action.
(2)Sunset.—
(A) Subject to subparagraph (B), no stay shall be
granted or continued in effect under paragraph (1)
after the date that is 10 years after the date on which
the incident that gave rise to the cause of action
occurred.
(B) After the period referred to in subparagraph (A),
the court, upon request of the Attorney General, may
stay any request, demand, or order for discovery on
the United States that the court finds a substantial
likelihood would—
(i) create a serious threat of death or serious bodily
injury to any person;

58a
(ii) adversely affect the ability of the United States to
work in cooperation with foreign and international
law enforcement agencies in investigating violations
of United States law; or
(iii) obstruct the criminal case related to the incident
that gave rise to the cause of action or undermine the
potential for a conviction in such case.
(3)Evaluation of evidence.—
The court’s evaluation of any request for a stay under
this subsection filed by the Attorney General shall be
conducted ex parte and in camera.
(4)Bar on motions to dismiss.—
A stay of discovery under this subsection shall
constitute a bar to the granting of a motion to dismiss
under rules 12(b)(6) and 56 of the Federal Rules of
Civil Procedure.
(5)Construction.—
Nothing in this subsection shall prevent the United
States from seeking protective orders or asserting
privileges ordinarily available to the United States.
(h)Jurisdictional Immunity for Certain Art
Exhibition Activities.—
(l)In general.—If—
(A) a work is imported into the United States from
any foreign state pursuant to an agreement that
provides for the temporary exhibition or display of
such work entered into between a foreign state that is
the owner or custodian of such work and the United
States or one or more cultural or educational
institutions within the United States;
(B) the President, or the President’s designee, has
determined, in accordance with subsection (a) of
Public Law 89-259 (22 U.S.C. 2459(a)), that such
work is of cultural significance and the temporary
exhibition or display of such work is in the national
interest; and

59a
(C) the notice thereof has been published in
accordance with subsection (a) of Public Law 89-259
(22 U.S.C. 2459(a)),
any activity in the United States of such foreign
state, or of any carrier, that is associated with the
temporary exhibition or display of such work shall
not be considered to be commercial activity by such
foreign state for purposes of subsection (a)(3).
(2 Exceptions.—
(A)Nazi-era claims.—Paragraph (1) shall not apply in
any case asserting jurisdiction under subsection (a)(3)
in which rights in property taken in violation of
international law are in issue within the meaning of
that subsection and—
(i) the property at issue is the work described in
paragraph (1);
(ii) the action is based upon a claim that such work
was taken in connection with the acts of a covered
government during the covered period;
(iii) the court determines that the activity associated
with the exhibition or display is commercial activity,
as that term is defined in section 1603(d); and
(iv) a determination under clause (iii) is necessary for
the court to exercise jurisdiction over the foreign
state under subsection (a)(3).
(B)Other culturally significant works.—In addition to
cases exempted under subparagraph (A), paragraph
(1) shall not apply in any case asserting jurisdiction
under subsection (a)(3) in which rights in property
taken in violation of international law are in issue
within the meaning of that subsection and—
(i) the property at issue is the work described in
paragraph (1);
(ii) the action is based upon a claim that such work
was taken in connection with the acts of a foreign
government as part of a systematic campaign of

60a
coercive confiscation or misappropriation of works
from members of a targeted and vulnerable group;
(iii) the taking occurred after 1900;
(iv) the court determines that the activity associated
with the exhibition or display is commercial activity,
as that term is defined in section 1603(d); and
(v) a determination under clause (iv) is necessary for
the court to exercise jurisdiction over the foreign
state under subsection (a)(3).
(3definitions.—For purposes of this subsection—
(A) the term “work” means a work of art or other
object of cultural significance;
(B) the term “covered government” means—
(i) the Government of Germany during the covered
period;
(ii) any government in any area in Europe that was
occupied by the military forces of the Government of
Germany during the covered period;
(iii) any government in Europe that was established
with the assistance or cooperation of the Government
of Germany during the covered period; and
(iv) any government in Europe that was an ally of the
Government of Germany during the covered period;
and
(C) the term “covered period” means the period
beginning on January 30, 1933, and ending on May 8,
1945.
28 U.S.C. §1606
As to any claim for relief with respect to which a
foreign state is not entitled to immunity under
section 1605 or 1607 of this chapter, the foreign state
shall be liable in the same manner and to the same
extent as a private individual under like
circumstances; but a foreign state except for an
agency or instrumentality thereof shall not be liable
for punitive damages; if, however, in any case

61a
wherein death was caused, the law of the place where
the action or omission occurred provides, or has been
construed to provide, for damages only punitive in
nature, the foreign state shall be liable for actual or
compensatory damages measured by the pecuniary
injuries resulting from such death which were
incurred by the persons for whose benefit the action
was brought.
28 U.S.C. §1607
In any action brought by a foreign state, or in which a
foreign state intervenes, in a court of the United
States or of a State, the foreign state shall not be
accorded immunity with respect to any counterclaim
(a) for which a foreign state would not be entitled to
immunity under section 1605 or 1605A of this
chapter had such claim been brought in a separate
action against the foreign state; or
(b) arising out of the transaction or occurrence that is
the subject matter of the claim of the foreign state; or
(c) to the extent that the counterclaim does not seek
relief exceeding in amount or differing in kind from
that sought by the foreign state.
28 U.S.C. §1608
(a) Service in the courts of the United States and of
the States shall be made upon a foreign state or
political subdivision of a foreign state:
(1) by delivery of a copy of the summons and
complaint in accordance with any special
arrangement for service between the plaintiff and the
foreign state or political subdivision; or
(2) if no special arrangement exists, by delivery of a
copy of the summons and complaint in accordance
with an applicable international convention on
service of judicial documents; or
(3) if service cannot be made under paragraphs (1) or

62a
(2), by sending a copy of the summons and complaint
and a notice of suit, together with a translation of
each into the official language of the foreign state, by
any form of mail requiring a signed receipt, to be
addressed and dispatched by the clerk of the court to
the head of the ministry of foreign affairs of the
foreign state concerned, or
(4) if service cannot be made within 30 days under
paragraph (3), by sending two copies of the summons
and complaint and a notice of suit, together with a
translation of each into the official language of the
foreign state, by any form of mail requiring a signed
receipt, to be addressed and dispatched by the clerk of
the court to the Secretary of State in Washington,
District of Columbia, to the attention of the Director
of Special Consular Services—and the Secretary shall
transmit one copy of the papers through diplomatic
channels to the foreign state and shall send to the
clerk of the court a certified copy of the diplomatic
note indicating when the papers were transmitted.
As used in this subsection, a “notice of suit” shall
mean a notice addressed to a foreign state and in a
form prescribed by the Secretary of State by
regulation.
(b) Service in the courts of the United States and of
the States shall be made upon an agency or
instrumentality of a foreign state:
(1) by delivery of a copy of the summons and
complaint in accordance with any special
arrangement for service between the plaintiff and the
agency or instrumentality; or
(2) if no special arrangement exists, by delivery of a
copy of the summons and complaint either to an
officer, a managing or general agent, or to any other
agent authorized by appointment or by law to receive
service of process in the United States; or in

63a
accordance with an applicable international
convention on service of judicial documents; or
(3) if service cannot be made under paragraphs (1) or
(2), and if reasonably calculated to give actual notice,
by delivery of a copy of the summons and complaint,
together with a translation of each into the official
language of the foreign state—
(A) as directed by an authority of the foreign state or
political subdivision in response to a letter rogatory
or request or
(B) by any form of mail requiring a signed receipt, to
be addressed and dispatched by the clerk of the court
to the agency or instrumentality to be served, or
(C) as directed by order of the court consistent with
the law of the place where service is to be made.
(c) Service shall be deemed to have been made—
(1) in the case of service under subsection (a)(4), as of
the date of transmittal indicated in the certified copy
of the diplomatic note; and
(2) in any other case under this section, as of the date
of receipt indicated in the certification, signed and
returned postal receipt, or other proof of service
applicable to the method of service employed.
(d) In any action brought in a court of the United
States or of a State, a foreign state, a political
subdivision thereof, or an agency or instrumentality
of a foreign state shall serve an answer or other
responsive pleading to the complaint within sixty
days after service has been made under this section.
(e) No judgment by default shall be entered by a
court of the United States or of a State against a
foreign state, a political subdivision thereof, or an
agency or instrumentality of a foreign state, unless
the claimant establishes his claim or right to relief by
evidence satisfactory to the court. A copy of any such
default judgment shall be sent to the foreign state or

64a
political subdivision in the manner prescribed for
service in this section.
28 U.S.C. §1609
Subject to existing international agreements to which
the United States is a party at the time of enactment
of this Act the property in the United States of a
foreign state shall be immune from attachment arrest
and execution except as provided in sections 1610 and
1611 of this chapter.
28 U.S.C. §1610
(a) The property in the United States of a foreign
state, as defined in section 1603(a) of this chapter,
used for a commercial activity in the United States,
shall not be immune from attachment in aid of
execution, or from execution, upon a judgment
entered by a court of the United States or of a State
after the effective date of this Act, if—
(1) the foreign state has waived its immunity from
attachment in aid of execution or from execution
either explicitly or by implication, notwithstanding
any withdrawal of the waiver the foreign state may
purport to effect except in accordance with the terms
of the waiver, or
(2) the property is or was used for the commercial
activity upon which the claim is based, or
(3) the execution relates to a judgment establishing
rights in property which has been taken in violation
of international law or which has been exchanged for
property taken in violation of international law, or
(4) the execution relates to a judgment establishing
rights in property—
(A) which is acquired by succession or gift, or
(B) which is immovable and situated in the United
States: Provided, That such property is not used for
purposes of maintaining a diplomatic or consular
mission or the residence of the Chief of such mission,

65a
or
(5) the property consists of any contractual obligation
or any proceeds from such a contractual obligation to
indemnify or hold harmless the foreign state or its
employees under a policy of automobile or other
liability or casualty insurance covering the claim
which merged into the judgment, or
(6) the judgment is based on an order confirming an
arbitral award rendered against the foreign state,
provided that attachment in aid of execution, or
execution, would not be inconsistent with any
provision in the arbitral agreement, or
(7) the judgment relates to a claim for which the
foreign state is not immune under section 1605A or
section 1605(a)(7) (as such section was in effect on
January 27, 2008), regardless of whether the property
is or was involved with the act upon which the claim
is based.
(b) In addition to subsection (a), any property in the
United States of an agency or instrumentality of a
foreign state engaged in commercial activity in the
United States shall not be immune from attachment
in aid of execution, or from execution, upon a
judgment entered by a court of the United States or
of a State after the effective date of this Act, if—
(1) the agency or instrumentality has waived its
immunity from attachment in aid of execution or
from execution either explicitly or implicitly,
notwithstanding any withdrawal of the waiver the
agency or instrumentality may purport to effect
except in accordance with the terms of the waiver, or
(2) the judgment relates to a claim for which the
agency or instrumentality is not immune by virtue of
section 1605(a)(2), (3), or (5) or 1605(b) of this
chapter, regardless of whether the property is or was
involved in the act upon which the claim is based, or

66a
(3) the judgment relates to a claim for which the
agency or instrumentality is not immune by virtue of
section 1605A of this chapter or section 1605(a)(7) of
this chapter (as such section was in effect on January
27, 2008), regardless of whether the property is or
was involved in the act upon which the claim is based.
(c) No attachment or execution referred to in
subsections (a) and (b) of this section shall be
permitted until the court has ordered such
attachment and execution after having determined
that a reasonable period of time has elapsed following
the entry of judgment and the giving of any notice
required under section 1608(e) of this chapter.
(d) The property of a foreign state, as defined in
section 1603(a) of this chapter, used for a commercial
activity in the United States, shall not be immune
from attachment prior to the entry of judgment in
any action brought in a court of the United States or
of a State, or prior to the elapse of the period of time
provided in subsection (c) of this section, if—
(1) the foreign state has explicitly waived its
immunity from attachment prior to judgment,
notwithstanding any withdrawal of the waiver the
foreign state may purport to effect except in
accordance with the terms of the waiver, and
(2) the purpose of the attachment is to secure
satisfaction of a judgment that has been or may
ultimately be entered against the foreign state, and
not to obtain jurisdiction.
(e) The vessels of a foreign state shall not be immune
from arrest in rem, interlocutory sale, and execution
in actions brought to foreclose a preferred mortgage
as provided in section 1605(d).
(f)
(1)
(A) Notwithstanding any other provision of law,

67a
including but not limited to section 208(f) of the
Foreign Missions Act (22 U.S.C. 4308(f)), and except
as provided in subparagraph (B), any property with
respect to which financial transactions are prohibited
or regulated pursuant to section 5(b) of the Trading
with the Enemy Act (50 U.S.C. App. 5(b)),[1] section
620(a) of the Foreign Assistance Act of 1961 (22
U.S.C. 2370(a)), sections 202 and 203 of the
International Emergency Economic Powers Act (50
U.S.C. 1701-1702), or any other proclamation, order,
regulation, or license issued pursuant thereto, shall
be subject to execution or attachment in aid of
execution of any judgment relating to a claim for
which a foreign state (including any agency or
instrumentality or such state) claiming such property
is not immune under section 1605(a)(7) (as in effect
before the enactment of section 1605A) or section
1605A.
(B) Subparagraph (A) shall not apply if, at the time
the property is expropriated or seized by the foreign
state, the property has been held in title by a natural
person or, if held in trust, has been held for the
benefit of a natural person or persons.
(2)

(A) At the request of any party in whose favor a
judgment has been issued with respect to a claim for
which the foreign state is not immune under section
1605(a)(7) (as in effect before the enactment of
section 1605A) or section 1605A, the Secretary of the
Treasury and the Secretary of State should make
every effort to fully, promptly, and effectively assist
any judgment creditor or any court that has issued
any such judgment in identifying, locating, and
executing against the property of that foreign state or
any agency or instrumentality of such state.
(B) In providing such assistance, the Secretaries—

68a
(i) may provide such information to the court under
seal; and
(ii) should make every effort to provide the
information in a manner sufficient to allow the court
to direct the United States Marshall’s office to
promptly and effectively execute against that
property.
(3)Waiver.—
The President may waive any provision of paragraph
(1) in the interest of national security.
(g)Property in Certain Actions.—
(1)In general.—Subject to paragraph (3), the property
of a foreign state against which a judgment is entered
under section 1605A, and the property of an agency
or instrumentality of such a state, including property
that is a separate juridical entity or is an interest held
directly or indirectly in a separate juridical entity, is
subject to attachment in aid of execution, and
execution, upon that judgment as provided in this
section, regardless of—
(A) the level of economic control over the property by
the government of the foreign state;
(B) whether the profits of the property go to that
government;
(C) the degree to which officials of that government
manage the property or otherwise control its daily
affairs;
(D) whether that government is the sole beneficiary
in interest of the property; or
(E) whether establishing the property as a separate
entity would entitle the foreign state to benefits in
United States courts while avoiding its obligations.
(2)United sovereign immunity inapplicable.—
Any property of a foreign state, or agency or
instrumentality of a foreign state, to which paragraph
(1) applies shall not be immune from attachment in

69a
aid of execution, or execution, upon a judgment
entered under section 1605A because the property is
regulated by the United States Government by
reason of action taken against that foreign state
under the Trading With the Enemy Act or the
International Emergency Economic Powers Act.
(3)Third-party joint property holders.—
Nothing in this subsection shall be construed to
supersede the authority of a court to prevent
appropriately the impairment of an interest held by a
person who is not liable in the action giving rise to a
judgment in property subject to attachment in aid of
execution, or execution, upon such judgment.
28 U.S.C. §1611
(a) Notwithstanding the provisions of section 1610 of
this chapter, the property of those organizations
designated by the President as being entitled to enjoy
the privileges, exemptions, and immunities provided
by the International Organizations Immunities Act
shall not be subject to attachment or any other
judicial process impeding the disbursement of funds
to, or on the order of, a foreign state as the result of
an action brought in the courts of the United States
or of the States.
(b) Notwithstanding the provisions of section 1610 of
this chapter, the property of a foreign state shall be
immune from attachment and from execution, if—
(1) the property is that of a foreign central bank or
monetary authority held for its own account, unless
such bank or authority, or its parent foreign
government, has explicitly waived its immunity from
attachment in aid of execution, or from execution,
notwithstanding any withdrawal of the waiver which
the bank, authority or government may purport to
effect except in accordance with the terms of the
waiver; or

70a
(2) the property is, or is intended to be, used in
connection with a military activity and
(A) is of a military character, or
(B) is under the control of a military authority or
defense agency.
(c) Notwithstanding the provisions of section 1610 of
this chapter, the property of a foreign state shall be
immune from attachment and from execution in an
action brought under section 302 of the Cuban
Liberty and Democratic Solidarity (LIBERTAD) Act
of 1996 to the extent that the property is a facility or
installation used by an accredited diplomatic mission
for official purposes.
V. Amendment XIV to the U.S. Constitution
Section 1.
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the state wherein they
reside. No state shall make or enforce any law which
shall abridge the privileges or immunities of citizens
of the United States; nor shall any state deprive any
person of life, liberty, or property, without due
process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
Section 2.
Representatives shall be apportioned among the
several states according to their respective numbers,
counting the whole number of persons in each state,
excluding Indians not taxed. But when the right to
vote at any election for the choice of electors for
President and Vice President of the United States,
Representatives in Congress, the executive and
judicial officers of a state, or the members of the
legislature thereof, is denied to any of the male
inhabitants of such state, being twenty-one years of

71a
age, and citizens of the United States, or in any way
abridged, except for participation in rebellion, or
other crime, the basis of representation therein shall
be reduced in the proportion which the number of
such male citizens shall bear to the whole number of
male citizens twenty-one years of age in such state.
Section 3.
No person shall be a Senator or Representative in
Congress, or elector of President and Vice President,
or hold any office, civil or military, under the United
States, or under any state, who, having previously
taken an oath, as a member of Congress, or as an
officer of the United States, or as a member of any
state legislature, or as an executive or judicial officer
of any state, to support the Constitution of the United
States, shall have engaged in insurrection or rebellion
against the same, or given aid or comfort to the
enemies thereof. But Congress may by a vote of twothirds of each House, remove such disability.
Section 4.
The validity of the public debt of the United States,
authorized by law, including debts incurred for
payment of pensions and bounties for services in
suppressing insurrection or rebellion, shall not be
questioned. But neither the United States nor any
state shall assume or pay any debt or obligation
incurred in aid of insurrection or rebellion against the
United States, or any claim for the loss or
emancipation of any slave; but all such debts,
obligations and claims shall be held illegal and void.
Section 5.
The Congress shall have power to enforce, by
appropriate legislation, the provisions of this article.

